<html>
<title> - COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2006</title>
<body><pre>[Senate Hearing 109-]
[From the U.S. Government Printing Office]



 
  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2006

                              ----------                              


                         THURSDAY, MAY 12, 2005

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 2 p.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Richard C. Shelby (chairman) 
presiding.
    Present: Senators Shelby, Hutchison, Cochran, and Mikulski.

             NATIONAL AERONAUTICS AND SPACE ADMINISTRATION

STATEMENT OF MICHAEL D. GRIFFIN, ADMINISTRATOR

             OPENING STATEMENT OF SENATOR RICHARD C. SHELBY

    Senator Shelby. The subcommittee will come to order.
    This hearing of the Senate Commerce, Justice, Science and 
Related Agencies Subcommittee is the first meeting of the 
restructured committee. I want to welcome the new NASA 
Administrator, Dr. Michael Griffin, who is joining us to 
discuss the President's fiscal year 2006 budget request for the 
National Aeronautics and Space Administration (NASA).
    Dr. Griffin, in assuming your new post as the NASA 
Administrator, I can only imagine how busy the past few weeks 
have been for you. Now that you have had some time to 
reacquaint yourself with NASA's activities, we look forward to 
discussing your thoughts about how NASA is doing and hearing 
your insights as to what they could be doing better.
    I also anticipate that we will have an ongoing and open 
dialogue about NASA's progress with return to flight and 
achieving the President's Vision for Space Exploration. I am 
very interested in discussing how we can preserve their 
expertise within the activities and institutions that will be 
necessary to take this ambitious journey.
    More than 1 year ago, the President presented a Vision for 
Space Exploration that calls for a return to the Moon and 
eventually a manned mission to another planet. I am excited 
myself by the opportunities that lie ahead with the exploration 
vision at NASA.
    However, there are fiscal realities that, like it or not, 
may affect the vision. That is what we deal with on this 
subcommittee, and I believe it is one of the difficulties that 
you will face as the NASA Administrator: having to balance 
NASA's limited resources with its programs and requirements.
    I believe that we all appreciate the inherent risk involved 
with many of the activities NASA undertakes. We also appreciate 
that with risk comes the potential for failure. Inevitably, 
failures increase the overall cost of the activity, and one of 
the problems that I anticipate along the path to the Moon is 
the potential for failures that could pose a significant 
challenge to the forward momentum of the program and vision. Of 
course, we all hope there will not be any failures, but I 
believe we have to build in the possibility.
    We have already experienced such a challenge with NASA's 
return-to-flight requirements. Specifically, we have seen a 
strain on science missions and aeronautics as NASA has 
redirected funds to pay for return-to-flight cost overruns. 
These fund shifts have caused programs and facility projects to 
be deferred, created uncertainty regarding the fate of the 
Hubble telescope and resulted in aeronautic spending being 
flat.
    Dr. Griffin, I believe you have the knowledge, the 
background, and the ability to guide NASA. But I also believe 
that you must begin your journey on a firm foundation. Getting 
back to the Moon will take more than just plans for a rocket. 
It will also take a sound financial structure and capable 
management in order to balance all of the important activities 
that NASA undertakes to make this exploration vision a reality.
    I believe there are several looming issues that must be 
addressed to maintain the forward momentum of NASA's 
exploration goals. The first, as I alluded to before, is the 
Shuttle fleet and how that impacts any future crew exploration 
vehicle--CEV. NASA has been working diligently to complete the 
necessary changes to the Shuttle that will provide additional 
safety for our astronauts and the vehicle itself. However, the 
Shuttle is targeted to be decommissioned by 2010. The next U.S. 
manned space vehicle, the crew exploration vehicle, is not 
currently scheduled for a manned flight until 2014. I am 
concerned by such a gap in U.S. manned space flight and, more 
importantly, I am concerned that the time schedule for the 
current 25 or more Shuttle flights prior to the 2010 retirement 
is quite optimistic. Any deviation in these schedules as they 
relate to funding could cause this gap to widen even further 
than is currently anticipated.
    I understand that you have your own ideas, Dr. Griffin, as 
to how the gap between the Shuttle retirement and the CEV could 
be closed. I am interested in hearing how you believe this is a 
possibility during a tight funding environment.
    The second challenge, the completion of the International 
Space Station, is directly linked to the first. The 
construction of the station is dependent on the Shuttle for 
critical supplies and parts that cannot be delivered by any 
other vehicle. Our international partners have done an 
admirable job filling in while the Shuttle is undergoing 
repair, but there is an expectation that the Shuttle will 
return as it is essential to complete the Space Station.
    The United States has a commitment to our international 
partners to complete the station. I believe we must maintain 
that commitment, and I am interested in hearing your thoughts 
about NASA's plans for completing the International Space 
Station and, further, how that will impact our ability to work 
cooperatively with other countries in the future on the vision 
we have.
    Finally, I believe NASA faces a significant challenge in 
building the technical workforce necessary to carry us into the 
future. NASA is one of the most publicly recognized agencies 
within the Federal Government. We all know something about 
NASA, whether it is the stunning pictures of the universe from 
the Hubble space telescope photos from Mars, or even the 
astronauts living on the Space Station. Such high visibility 
and name recognition can be powerful tools in inspiring and 
recruiting future scientists and engineers. But I believe the 
success of NASA programs in science and exploration that 
students see today is the inspiration necessary to attract the 
young people of this Nation to these careers in the future.
    I know you realize that the missions of tomorrow will not 
be possible if there are no scientists and engineers being 
developed today. This is a serious issue that must be addressed 
in order to ensure that future exploration in space can occur.
    I want to thank you again for being here today. It is my 
hope that this will be the beginning, Dr. Griffin, of a 
productive relationship between NASA and this newly constituted 
subcommittee.
    Senator Mikulski.

                STATEMENT OF SENATOR BARBARA A. MIKULSKI

    Senator Mikulski. Thank you very much, Mr. Chairman. And 
today is really the first hearing of the new Commerce, Justice, 
Science Subcommittee, and I want to say how much I look forward 
to working with you, Chairman Shelby. Though we are new 
together in our assignment on this subcommittee, Senator Shelby 
and I have a very long and collegial history together. We 
served on the same committee in the House of Representatives, 
on Energy and Commerce. We were on the Appropriations Committee 
since our arrival in the Senate, and we have worked closely 
with Senator Shelby when he has had other committee 
responsibilities. And I must say, Senator Shelby, I have always 
found you to be a good friend and a very collegial colleague, 
and I look forward to that relationship.
    Also, in your remarks and the priorities that you have laid 
out in your opening statement, I want to assure all those are 
also my priorities and that we can work on a bipartisan basis 
in the interest of the United States of America and look 
forward with you since we both have a parallel will to finding 
the wallet.
    I am excited about this new subcommittee, though I was 
initially disappointed at the dissolution of the VA/HUD 
Subcommittee. But what we see here, I think you and I have a 
new opportunity for a true science subcommittee. I recall that 
our colleague and former astronaut John Glenn said that we 
should have done this a long time ago, that too much of our 
science was stovepiped into too many different subcommittees. 
But here now on this subcommittee we have something quite 
unique. We are bringing together NASA, the National Oceanic and 
Atmospheric Administration (NOAA), the National Science 
Foundation, the National Institutes of Standards, the Patent 
Office, and the President's Science Advisor. So we would hope 
that this would be the beginning of kind of a leveraged science 
policy.
    I am excited about this because I believe that science is 
the key to innovation, and innovation is the key to our future. 
If we are going to have a safer country, a stronger economy, we 
need to be smarter, and that involves really leveraging our 
research and technology development and a world-class 
workforce. Our economy and our national security will depend 
upon it.
    I also think that we, because of this subcommittee, both 
through NASA and the National Oceanic and Atmospheric 
Administration, could present an incredible opportunity in 
terms of far-reaching research and far-reaching exploration of 
the stars, but in a way that we would focus efforts on Earth 
science that would save lives, save livelihoods, and advance 
our technological competitive edge.
    So today I am looking forward to hearing from Dr. Griffin, 
our new head at the helm of NASA. I personally want to thank 
President Bush for appointing an actual rocket scientist to 
head NASA. But I would also like to take this opportunity to 
thank someone in the audience, Mr. Chairman--Mr. Fred Gregory, 
who served as the Acting Director of NASA and provided a very 
steady hand. And, sir, we would like to thank you and salute 
you for the job you did during that time, but also in your 
career at NASA. And I think it points out the wonderful civil 
service we have at NASA, these wonderful men and women who give 
their lives to scientific exploration, who work in the 
Government sphere to advance our national priorities. So we 
want to say thank you to you personally and to you representing 
really what an outstanding civil service we have. So thanks 
again.
    We are looking forward, though, to hearing from Mr. 
Griffin. As the chairman said, we have got to talk about the 
Shuttle. We have got to make sure the Shuttle flies when it 
should fly so that it can go to space and return our astronauts 
safely. At the same time, I too am concerned about the fact 
that we could be without a crew exploration vehicle for 4 
years. We know that the Shuttle is aging technology. We know 
that it will get us through a difficult time now. But I believe 
that we owe it to the country, we owe it to our astronauts, 
that we really look at what is a wide, prudent way to 
accelerate this crew transportation system.
    The United States of America should always have its own 
access to space. The Space Station, too, we need to be able to 
finish that, keep our commitment to our international partners, 
and keep it as a premier research facility.
    And, of course, then there is Hubble. Everyone knows my 
position on Hubble, and I believe it has been the greatest 
telescope invention since Galileo himself stood on that rooftop 
in Florence. And as Dr. Griffin knows, I have stood on those 
rooftops in Baltimore with the Space Telescope Institute and 
our beloved Hubble.
    But Hubble has resulted in enormous scientific 
breakthroughs. We look forward to the next generation, but we 
think if we can repair Hubble, give it new batteries and new 
optics, it will take us far into the future at many different 
levels.
    But, of course, then we look at the NASA budget. I am 
concerned about the Shuttle cost and our ability to pay for it, 
the Space Station and our ability to maintain it, that aging 
infrastructure that Senator Shelby has talked about, and our 
new vision, the President's vision to go into space. But along 
the way, I really hope that we do not neglect the other 
dimension of the NASA responsibility, and that is aeronautics.
    Twenty years ago, the United States had over 90 percent of 
the market share for commercial airlines. Today we have 50 
percent of that market, and the National Institute of 
Aeronautics told us we must really continue to focus on our 
aeronautics for our national security and our economic 
security. And, Mr. Chairman, I look forward to working with 
you, as always, on a balanced program: a reliable space 
transportation system, always supporting the daring and the 
outcome of human exploration, but also a special emphasis on 
science both in terms of understanding our own planet, others 
out there, and also new breakthroughs in aeronautics that will 
help our country be safer and stronger.
    So, Mr. Chairman, I look forward to working with you, 
listening to Mr. Griffin, and again, Mr. Gregory, thank you 
very much.
    Senator Shelby. Senator Hutchison.

               STATEMENT OF SENATOR KAY BAILEY HUTCHISON

    Senator Hutchison. Thank you, Mr. Chairman. And welcome 
again, Mr. Administrator. I certainly look forward to having 
you at my subcommittee next week as well to talk about Space 
Shuttle and beyond.
    The proposed budget for NASA is certainly one that reflects 
difficult choices, but given the overall reductions in 
discretionary spending, I think it is generous and fair. 
Undoubtedly, many areas of traditional NASA activity feel the 
pressure from our new priority: preparing humans for missions 
back to the Moon and on to Mars. This is a new direction. It is 
a bold direction and one that I totally support. NASA should be 
bold, and having the long-term vision is essential for NASA.
    Where I have questions and concerns about NASA, they 
revolve around longer-term impacts to our current investments 
in human space flight capabilities. As you know, Mr. 
Administrator, I am concerned about the possibility of a gap 
between the planned retirement of the Shuttle and the 
availability of the replacement crew return vehicle. I think a 
5-year gap is unacceptable. I think it is not only a risk to 
the important scientific research that we are doing, but it is 
a security risk to our country. And I am pleased that you have 
shared the same concerns, and I know both the chairman and the 
ranking member here have also expressed those concerns.
    I also am concerned about the investment that our Nation 
and our international partners have made in the International 
Space Station and wanting to assure that with the budget 
priorities that we have, we keep the commitments to the 
International Space Station and finishing the job of building 
it out.
    In addition, of course, I believe that the science is going 
to be the most important thing that we do with humans in space, 
and, therefore, we need to have the Space Station totally ready 
with its buildout and with the scientific emphasis that is so 
important for the missions to succeed.
    So I am looking forward to working with you. I think what 
you have done in delaying the return to flight is exactly the 
right thing. Your concern for safety and your jumping right in 
and going to the bottom, not just the top, to determine that we 
were ready to go was exactly right. And as my friend and 
colleague Senator Mikulski said, we want it to go badly but we 
want it to go at the right time more. So thank you very much 
for being here, and I look forward to being able to hear you 
and then ask questions.
    Thank you, Mr. Chairman.
    Senator Shelby. Dr. Griffin, your written statement will be 
made part of the record in its entirety. Proceed as you wish.

         SUMMARY STATEMENT OF ADMINISTRATOR MICHAEL D. GRIFFIN

    Mr. Griffin. Thank you, Senators. It is also my pleasure to 
be here. I thank you for the invitation to appear before your 
subcommittee and begin the process of communication with you, 
which I pledge will be thorough and ongoing throughout my 
tenure.
    In the spirit of Senator Mikulski's remarks, I would like 
also to take a moment and thank Colonel Gregory for his service 
between Administrator O'Keefe's departure and my arrival. Fred 
is a personal friend of more than 15 years' standing, a person 
who has risked his life on behalf of this country in Vietnam, 
in military test flying, in weather flying, weather research 
flying, and on the Space Shuttle. His services in linking the 
tenures of Administrator O'Keefe and myself have been 
invaluable, and he continues to be invaluable today, and I want 
to take this opportunity to thank him publicly. So thank you, 
Fred.
    Chairman Shelby, ranking member Mikulski, Senator 
Hutchison, members of the subcommittee, thank you for this 
opportunity to discuss the President's fiscal year 2006 budget 
request for NASA and our strategic direction in carrying out 
the Nation's civil aeronautics research, space and Earth 
science, and space exploration activities.
    A month ago today, I appeared before the Senate Commerce, 
Science, and Transportation Committee as the President's 
nominee to be the NASA Administrator. I want to thank the 
Senate for your prompt consent to my nomination. It has been a 
busy month, and the Agency is well underway toward implementing 
the Vision for Space Exploration.
    I have said before and will say again that, as a Nation, we 
can clearly afford vigorous, well-executed programs in both 
robotic and human space exploration, Earth science, and 
aeronautics research. In presenting the vision last year, the 
President put forth a commitment that our Nation will undertake 
a journey of space exploration over the next several decades. I 
am personally committed to carrying out that vision.
    Every journey begins with a single step. The first step in 
that journey is to return--not rush--the Space Shuttle to 
flight. The next launch window for the first Space Shuttle 
mission following the Columbia tragedy begins in mid-July. 
Space Shuttle Discovery mission STS-114 will be commanded by 
Eileen Collins. I might add ``Colonel'' Eileen Collins. Our top 
priority in my tenure will be to make each successive flight 
safer for the crew than we believed the last one to have been.
    The second step in the vision is to complete the 
construction of the International Space Station and to retire 
the Space Shuttle by 2010. After two successful return-to-
flight Shuttle test flights, the Agency will complete its 
assessment of the relative risks of a Space Shuttle mission to 
service the Hubble space telescope to increase its capabilities 
and to extend its operational life.
    The next step in the Vision for Space Exploration is to 
develop the crew exploration vehicle that will be capable of 
ferrying the next generation of astronauts to the Space 
Station, the Moon, and Mars. As you may know, I recently kicked 
off an exploration systems architecture study team to examine 
ways to accelerate the development of the crew exploration 
vehicle in order to minimize any gaps in the United States' 
capability for human space flight. As I think all of you know, 
I completely share your concern about any gap between the 
retirement of the Shuttle and initiation of flights of the 
follow-on vehicle. I hope to share with you by mid-July NASA's 
plan for how we can accelerate development of the CEV, as well 
as that of the rocket needed to launch it. I also hope to share 
with you NASA's plan for the space architecture that will allow 
us to return to the Moon and eventually head onwards to Mars.
    NASA's fiscal year 2006 budget also funds a variety of 
satellite missions and scientific research in Earth science as 
well as other planets in our solar system. It funds development 
of even more advanced space telescopes to follow the Hubble, 
such as the James Webb space telescope.
    NASA's fiscal year 2006 budget for aeronautics research is 
focused on achieving results, such as reducing noise emissions, 
improving aircraft safety and security, and improving the 
capacity and efficiency of the National Airspace System. NASA 
is working closely with the FAA, the Defense Department, the 
Department of Homeland Security, and others to achieve those 
results.
    While today's hearing concerns the upcoming fiscal year, I 
also want to update the subcommittee concerning the difficult 
choices that must be made in executing NASA's fiscal year 2005 
budget and my guiding philosophy in dealing with those 
challenges.
    First, I want to thank this subcommittee and the Congress 
for providing NASA with the additional flexibility to address 
our challenges in this year's appropriation bill. It is my 
pledge to keep you fully informed as to how this Agency spends 
its allocated resources in accordance with the flexibility you 
have given us.
    In our fiscal year 2005 operating plan, which has been 
provided to this subcommittee, NASA is fully funding a $762 
million cost increase for Space Shuttle Return to Flight 
consistent with the recommendations of the Columbia Accident 
Investigation Board, over $400 million in congressionally 
directed items, $291 million for Hubble servicing options, and 
over $500 million in programmatic cost increases for various 
programs, including the Mars Reconnaissance Orbiter, set to 
launch in August, and the New Horizons mission to Pluto set for 
launch in early January--and numerous others, I might add, not 
just those two.
    To find offsets needed to fund these items, we have made 
some difficult choices. NASA cannot afford everything that is 
on its plate today. We must set clear priorities to remain 
within the budget NASA has been allocated.
    In order to preserve the option of servicing the Hubble 
space telescope and to provide for a safe deorbit, NASA must 
defer work on even more advanced astronomy missions planned 
after the Webb telescope. These projects, which are phenomenal 
technical achievements, will be done, but at a slower pace 
because we cannot afford to do everything at once.
    We will also look at deferring some Mars missions in their 
formative stages, currently in their formative stages, and 
restructuring Project Prometheus space nuclear power efforts. 
We must focus on nuclear technology efforts on our highest 
priorities for near-term needs, and we will examine alternative 
nuclear systems, including surface nuclear power, nuclear 
thermal propulsion, and nuclear electric propulsion systems to 
support human and robotic missions.
    Turning to NASA's fiscal year 2006 budget request, I think 
it is useful to emphasize that the proposal is balanced, 
allowing us to address national priorities in aeronautics and 
Earth science, while maintaining our focus on the vision for 
space exploration introduced in NASA's fiscal year 2005 budget.
    Budget highlights include a $5.5 billion request for the 
Science Mission Directorate. This will support 55 missions in 
orbit, 26 in development--including the Lunar Reconnaissance 
Orbiter which will map the Moon's surface in great detail--and 
34 projects in the design phase. NASA has a robust science 
agenda.
    Our $3.2 billion request for the Exploration Systems 
Mission Directorate includes $753 million, a down payment 
toward the crew exploration vehicle, so that we will have the 
capability to launch humans into space as soon as possible 
after the Shuttle's retirement.
    One of the ways we may accelerate development of the CEV is 
by down-selecting to a single contractor in early 2006 as 
opposed to the previously planned 2008. Likewise, we may also 
need to defer work in certain exploration-related technologies 
that are not needed in the early years of implementing the 
vision for exploration.
    The funding request of $6.8 billion for the Space 
Operations Mission Directorate includes $4.5 billion for the 
Space Shuttle and $1.9 billion for the International Space 
Station. NASA is currently examining alternative configurations 
for the Space Station that meet the needs of the United States 
and our international partners. We hope to provide the 
subcommittee our results from this study of the station 
configuration this summer.
    NASA's request for the Aeronautics Research Mission 
Directorate is $852 million. NASA's technical expertise and its 
facilities for aeronautics research must continue to become 
more focused and results-oriented. NASA must set realistic 
priorities for its aeronautics program within its limited 
resources. As we move forward, a broader national dialogue on 
aeronautics R&D goals may be appropriate as we enter the second 
century of aviation. These discussions must include a range of 
stakeholders and customers, including the Congress, Department 
of Defense, commercial civil aviation, and, of course, NASA.
    NASA's education initiatives need to establish clear goals, 
metrics, and monitoring techniques in the coming months to 
ensure that the funds the Congress provides will achieve the 
greatest benefit.
    I also intend to review how NASA can best harness the 
unique capabilities of the workforce at its field centers to 
achieve our Nation's objectives in aeronautics research, space 
science, and exploration.
    To conclude, let me stress my firm belief that as a Nation, 
we can clearly afford vigorous and well-executed programs in 
both robotic and human space exploration, Earth science, and 
aeronautics research.

                           PREPARED STATEMENT

    I plan to work closely with your subcommittee to help 
achieve these ends.
    Thank you once again for the opportunity to appear before 
you this morning.
    [The statement follows:]

                Prepared Statement of Michael D. Griffin

    Mr. Chairman and Members of the Subcommittee, thank you for this 
opportunity to appear today to discuss NASA's plans for the future as 
represented in the President's fiscal year 2006 budget request for 
NASA.
    On January 14, 2004, President George W. Bush announced the Vision 
for Space Exploration. The President's directive gave NASA clear 
objectives as well as a new and historic focus. The fundamental goal of 
this directive for the Nation's space exploration program is ``. . . to 
advance U.S. scientific, security, and economic interests through a 
robust space exploration program.'' In issuing this directive, the 
President committed the Nation to a journey of exploring the solar 
system and beyond, returning humans to the Moon, and sending robots and 
ultimately humans to Mars and other destinations. He challenged us to 
establish new and innovative programs to enhance our understanding of 
the planets, to ask new questions, and to answer questions as old as 
humankind. NASA embraced this directive and began a long-term 
transformation to enable us to achieve this goal.
    In June 2004, the President's Commission on Implementation of the 
United States Space Exploration Policy, led by E.C. ``Pete'' Aldridge, 
Jr. (the Aldridge Commission), reported its findings and 
recommendations to the President. The Aldridge Commission emphasized 
the crucial role that technological innovation, national and 
international partnerships, and organizational transformation must play 
if we are to implement the President's vision for an affordable and 
sustainable space exploration program. NASA is committed to making the 
necessary transformation to achieve the Vision for Space Exploration.
    On December 21, 2004, the President signed a new national policy 
directive that establishes guidelines and implementation actions for 
United States space transportation programs and activities to ensure 
the Nation's continued ability to access and use space for national and 
homeland security, and civil, scientific, and commercial purposes. NASA 
will play a significant role in implementing this directive, fostering 
and enabling the development of space transportation capabilities for 
human space exploration beyond low-Earth orbit with the Crew 
Exploration Vehicle (CEV), consistent with the goals of the Vision for 
Space Exploration.
    The President demonstrated his commitment to the Vision for Space 
Exploration by making it a priority in his fiscal year 2005 budget 
request, and Congress responded positively by providing funding for 
NASA at the level requested by the President. The President has 
reaffirmed his commitment to the Vision by again making it a priority 
in his fiscal year 2006 budget request in a very challenging budget 
environment. The $16.46 billion requested for NASA reflects an increase 
of 2.4 percent over fiscal year 2005.
    While today's hearing concerns the President's fiscal year 2006 
budget request for NASA, I must also use this opportunity to update the 
Committee regarding the difficult choices that need to be made in 
executing NASA's fiscal year 2005 budget, and my guiding philosophy in 
dealing with these challenges.
    First, and most importantly, I want to thank this Committee and the 
Congress for providing NASA additional flexibility in the fiscal year 
2005 appropriations bill to address the challenges facing the Agency. 
It is my pledge to keep you fully informed of how this Agency spends 
the funds you have provided us. A detailed fiscal year 2005 Operating 
Plan update was recently provided to all of the Committees in Congress 
which oversee NASA.
    With this fiscal year 2005 Operating Plan update, NASA is fully 
funding--within our fiscal year 2005 budget--the $762 million increase 
for returning the Space Shuttle safely to flight, consistent with the 
recommendations from the Columbia Accident Investigation Board (CAIB), 
over $400 million in Congressionally-directed items, $291 million for 
Hubble servicing, and over $500 million in necessary programmatic cost 
increases, notably to cover cost growth in several space science 
missions, including the Mars Reconnaissance Orbiter, scheduled to be 
launched this August, and the New Horizons mission to Pluto set to 
launch in early January 2006.
    Identifying offsets needed to fund these items has created some 
difficult choices for the Agency. Given a choice, I generally favor 
eliminating lower-priority programs rather than reducing all programs 
in the face of budget difficulties, because this allows for the more 
efficient execution of the programs which remain. Thus, we must set 
clear priorities to remain within the budget which has been allocated.
    Allow me to be as clear as possible on what the impact of these 
costs means to other programs. The Agency has adopted a ``go-as-you-
can-pay'' approach toward space exploration. Several NASA missions and 
activities will need to be deferred or accomplished in other ways in 
order to ensure adequate funding for the priorities of the President 
and the Congress in fiscal year 2005. NASA cannot do everything that 
we, and our many stakeholders, would like to accomplish. Several 
missions will have to be delayed, deferred, or cancelled in order to 
pay for the missions where the priorities were set by the President and 
Congress. We have tried to be sensitive to the priorities of the 
affected research communities, and have listened carefully to their 
input. For example, we seek to balance among planetary science, Earth 
science, solar physics, and astronomy within the overall science 
program by revisiting our Mars exploration program strategy and mission 
sequence. Deferring the Mars Science Lab to 2011 is an option in this 
reassessment.
    In order to service the Hubble Space Telescope and provide for a 
safe deorbit, NASA will need to defer work on even more advanced space 
telescopes like the Space Interferometry Mission (SIM) and Terrestrial 
Planet Finder (TPF). The extent of this deferral and an appropriate 
follow-on strategy for the Origins program is currently under review. 
Space nuclear power and propulsion are absolutely essential for future 
space exploration. However, we must focus our nuclear technology 
efforts on our highest priorities for near-term needs. NASA will 
examine alternative nuclear systems--including surface nuclear power, 
nuclear thermal, and nuclear electric systems--to support human and 
robotic missions. As a result, we are able to restructure Prometheus 
Nuclear Systems and Technology, which, in the near-term, helps pay for 
fiscal year 2005 unrequested Congressional items and Agency priorities.
    As we complete future planning activities later this summer, we 
will need to further examine resources to accelerate the CEV. Likewise, 
NASA's research and technology efforts to support human space 
exploration missions farther out into the future will need to be 
curtailed, to focus on near-term needs of developing the CEV to be 
available as soon as possible.
    As someone who has managed many space and advanced technology 
programs, I believe that NASA's one-of-a-kind spacecraft missions must 
combine technical requirements and budget authority under clear lines 
of management authority and accountability. When I arrived at NASA a 
month ago, I found some programs (namely, the Hubble servicing mission, 
Robotic Lunar Exploration, and ISS crew/cargo) with overlapping 
responsibilities among Mission Directorates. We are simplifying the 
management chain-of-command and, in the May update to the fiscal year 
2005 Operating Plan, are transferring management responsibilities to 
the appropriate line managers.
    Likewise, when I arrived at NASA, the role of the CEV in supporting 
the International Space Station (ISS) was not clear. While the recently 
established Exploration Systems Architecture Study team will carefully 
define the CEV's requirements, I have specifically directed that the 
CEV will visit the ISS. As I testified during my confirmation hearing, 
I believe that the CEV development must be accelerated in order to 
minimize the gap between the Space Shuttle retirement and the first 
operational flight of the CEV. To that end, NASA's Exploration Systems 
Mission Directorate (ESMD) will be responsible for developing and 
acquiring crew and cargo capabilities to support the ISS, and funds 
have been transferred to that Directorate in the May update to NASA's 
fiscal year 2005 Operating Plan.

                            NASA PRIORITIES

    Over the past year, NASA has made great strides in implementing the 
Vision for Space Exploration and meeting other national priorities:
  --Shuttle Return to Flight.--We are making final preparations for the 
        Space Shuttle return-to-flight planned for mid-July.
  --International Space Station.--The ISS began its fifth year of 
        continuous human presence on-orbit.
  --Exploring our Solar System and the Universe.--The Mars rovers, 
        Spirit and Opportunity, have exceeded all expectations and made 
        unprecedented discoveries; the Cassini/Huygens mission is 
        providing stunning views of Saturn and Titan; the Genesis 
        mission, despite its hard landing, has returned primordial 
        samples from space; new missions have been launched to Mercury 
        and to comets; and amazing discoveries continue with Hubble, 
        Chandra, and Spitzer.
  --Laying the Groundwork for the Future.--We awarded initial contracts 
        in preparation for a major milestone in 2008 with the mapping 
        of the Moon in unprecedented detail by the Lunar Reconnaissance 
        Orbiter (LRO).
  --Engaging the Public.--We engaged the public and enhanced national 
        excitement for space exploration thanks to the President's 
        announcement of the Vision for Space Exploration. Indeed, in a 
        Gallup poll, seven out of ten Americans supported the 
        objectives of this Vision.
  --Aeronautics.--We are continuing to execute a portfolio of focused, 
        results-oriented technology demonstrations of next-generation 
        aircraft along with aviation safety, security, and airspace 
        systems. NASA, with its industry partners, recently 
        demonstrated the feasibility of significantly reducing the 
        sonic boom from supersonic aircraft, and, last November, NASA's 
        hypersonic X-43A demonstrated that an air-breathing engine can 
        fly at nearly 10 times the speed of sound.
  --Earth Science.--We have completed deployment of the Earth Observing 
        System and are supporting investments in the Global Change 
        Science and Technology Program and the next generation Earth 
        observing satellites for numerous applications, including 
        improved weather forecasts, earthquake prediction, resource 
        management, and other hazard warnings.
  --Education.--We are continuing to educate the public and inspire the 
        next generation of explorers.

                    AFFORDABILITY AND SUSTAINABILITY

    In his February 2nd State of the Union Address, the President 
underscored the need to restrain spending in order to sustain our 
economic prosperity. As part of this restraint, it is important that 
total discretionary and non-security spending be held to levels 
proposed in the fiscal year 2006 Budget. The budget savings and reforms 
in the Budget are important components of achieving the President's 
goal of cutting the budget deficit in half by 2009, and we urge the 
Congress to support these reforms. The fiscal year 2006 Budget includes 
more than 150 reductions, reforms, and terminations in non-defense 
discretionary programs, of which 3 affect NASA programs. The Agency 
wants to work with the Congress to achieve these savings.
    To achieve the Vision for Space Exploration, NASA is proceeding, as 
directed by the President, to plan and implement a sustainable and 
affordable, integrated robotic and human exploration program, 
structured with measurable milestones, and executed on the basis of 
available resources, accumulated experience, and technology readiness. 
Last year, we provided a long-range roadmap through 2020 to outline 
this program:
  --The Space Shuttle will be retired by 2010. Prior to its retirement, 
        it will be utilized primarily for the assembly of the ISS. Our 
        top priority will be to make each flight safer than the last 
        one.
  --The crew transportation capability provided by the Shuttle will be 
        replaced by the new CEV and its associated launch system. The 
        CEV will be developed in the latter part of this decade and 
        deployed operationally as soon as possible after Shuttle 
        retirement. The CEV will conduct missions in Earth orbit, 
        including missions to the ISS, but its primary mission will be 
        to support exploration of the Moon and other destinations.
  --A balanced program of robotic missions will continue to increase 
        our understanding of our home planet and will continue the 
        exploration of the solar system, traveling to the Moon and Mars 
        in anticipation of later human visits, as well as to other 
        destinations such as Mercury, Saturn, Pluto, asteroids, and 
        comets. Observatories will be deployed to search for Earth-like 
        planets and habitable environments around distant stars, and to 
        explore the universe to understand its origin, structure, 
        evolution, and destiny. Funding for these areas would 
        significantly increase over the coming years, with Science 
        investments growing from 33 percent to 38 percent of the 
        Agency's total budget.
  --Human explorers will return to the Moon, possibly as early as 
        2015--with the CEV as the first core element of a new 
        exploration architecture. Major development of the other 
        elements in the exploration architecture will commence later 
        this decade and will accelerate upon the retirement of the 
        Space Shuttle. These exploration elements will include launch 
        vehicles, in-space transfer systems, lunar landers, and surface 
        habitation systems. Critical research and technology investment 
        decisions will be guided by the development requirements of 
        these elements.
    These human and robotic explorers will enable our exploration and 
scientific plans. A recent report released on February 3, 2005, by the 
National Research Council, entitled Science in NASA's Vision for Space 
Exploration, states, ``Exploration done properly is a form of science. 
Both robotic spacecraft and human spaceflight should be used to fulfill 
scientific roles in NASA's mission to explore.'' To that end, NASA has 
initiated an Exploration Systems Architecture Study, to be completed in 
mid-July, which will provide the analytical support for a number of key 
near-term decisions for NASA, the White House, and Congress. We will 
keep Congressional Committees informed as this study effort progresses.
    This study effort has four products:
  --Complete assessment of the top-level CEV requirements and plans to 
        enable the CEV to provide crew transport to the ISS and to 
        accelerate the development of the CEV and crew launch system to 
        reduce the gap between Shuttle retirement and initial CEV 
        flights to the ISS.
  --Definition of top-level requirements and configurations for crew 
        and cargo launch systems to support the Lunar and Mars 
        exploration programs.
  --Development of a reference Lunar exploration architecture concept 
        to support sustained human and robotic Lunar exploration 
        operations.
  --Identification of key technologies required to enable and 
        significantly enhance these reference exploration systems, and 
        a re-prioritization of near-term and far-term technology 
        investments.
    NASA is also currently examining alternative configurations for the 
Space Station that meet the goals of the Vision and the needs of our 
international partners, while requiring as few Shuttle flights as 
possible to complete assembly.

         NASA PRIORITIES IN THE FISCAL YEAR 2006 BUDGET REQUEST

    The President's fiscal year 2006 budget request for NASA reaffirms 
the funding strategy outlined above. NASA's fiscal year 2006 request 
endeavors to provide a balanced portfolio of programs to meet the needs 
of our national priorities in aeronautics and civil space. It maintains 
focus on key priorities, milestones, and schedules for the Vision 
introduced in the fiscal year 2005 budget.
    To support the Administration's goal of reducing the deficit, 
NASA's budget was reduced $0.5 billion in fiscal year 2006 below the 
level planned in the 2005 budget for fiscal year 2006. In addition, 
returning the Shuttle safely to flight will cost $0.4 billion more in 
fiscal year 2006 than previously estimated. To address these and other 
items, we proposed a budget that provided $0.4 billion (11 percent) 
less for Exploration Systems than previously planned for, $0.3 billion 
(5 percent) less in Science, $0.1 billion (11 percent) less in 
Aeronautics, and $0.2 billion (4 percent) more in Space Operations. 
These changes were not easy, but in the end, we made the decisions to 
protect the priorities outlined above.

                                SCIENCE

    The fiscal year 2006 budget request of $5.5 billion for the Science 
Mission Directorate will support 55 missions in orbit, 26 in 
development, and 34 in design phase. By 2010, the Science budget will 
increase by 23 percent over current levels.
    The fiscal year 2006 budget includes $858 million for Mars and 
Lunar robotic exploration. The Mars rovers, Spirit and Opportunity, 
have far exceeded all goals with their unprecedented discoveries and 
longevity. Last year, the rovers found definitive evidence of an 
ancient body of water on the Red Planet, and they continue to gather 
data more than a year after their successful landing. We recently 
awarded contracts for six instruments to be flown on the 2008 LRO that 
promises unprecedented mapping of the Moon's surface. The 2008 LRO will 
be the first step in revolutionizing our understanding of the Moon, in 
much the same way that our Mars missions have transformed our 
understanding of Mars. As mentioned earlier, to simplify the management 
chain-of-command among mission directorates, our fiscal year 2005 
Operating Plan update transfers management responsibility for the Lunar 
Exploration program, including LRO, to the ESMD. This will help to 
maximize the exploration and science benefits of this important 
program.
    The budget also includes $218 million to maintain competitive 
efforts for the Explorer Program, $56 million for the Beyond Einstein 
program to study the universe, $234 million for studying the Sun in the 
Living With a Star program, and $136 million for competitive 
opportunities in the Earth System Science Pathfinder program. With our 
international partners, we also continue to add to the constellation of 
Earth-observing satellites that monitor our planet while extending our 
reach and presence further into the solar system. NASA launched Aura to 
look back at Earth and give us a better picture of our atmosphere and 
changing climate, and the entire Earth Observing System continues to 
return trillions of bytes of information about our dynamic Earth. In 
the future, NASA plans to develop a ``sensor-web'' to provide timely, 
on-demand data and analysis to users who can enable practical benefits 
for scientific research, national policymaking, economic growth, 
natural hazard mitigation, and the exploration of other planets in this 
solar system and beyond.
    NASA will continue to expand its exploration reach with an armada 
of existing and new space observatories operating in many different 
wavelengths and looking at different parts of our exotic universe. The 
three ``Great Observatories''--Hubble, Spitzer, and Chandra--will 
continue to bring wondrous images to our eyes and exciting new 
scientific discoveries. Missions such as Kepler will provide a new 
understanding and knowledge of the planets orbiting stars far from our 
solar system, perhaps identifying new targets for voyages of 
exploration by future generations of explorers.
    This budget also includes $372 million to continue developing the 
James Webb Space Telescope for a 2011 launch and provides $93 million 
in development funds for the Hubble Space Telescope to extend its 
scientific productivity. This investment in the Hubble, together with 
the synergistic use of the other two Great Observatories, and combined 
with the greatly increased capability of ground-based assets and the 
emergent science of optical interferometry, will ensure many years of 
new scientific discoveries.
    NASA's decision in January 2004 not to service the Hubble was a 
very difficult one, given the Hubble's record of spectacular successes. 
That decision was made at a time when significant uncertainty remained 
regarding the technical solutions and risks associated with return to 
flight. After the two successful Space Shuttle flights needed to 
achieve our return to flight objectives, NASA will have learned a great 
deal more regarding the risks and operations of the vehicle than was 
known when the previous decision was made. I am committed to 
reassessing this earlier decision after return to flight, based on the 
relative risks to the Space Shuttle as well as the costs and benefits 
to our Nation's astronomy program. As a result, we are continuing our 
efforts to preserve the option for a Shuttle servicing mission for 
Hubble. Consistent with this ongoing activity, NASA's fiscal year 2005 
Operating Plan update has fully funded the $291 million identified in 
the Conference Report accompanying the fiscal year 2005 Consolidated 
Appropriations bill and has consolidated the funding and management 
responsibility within the Science Mission Directorate. NASA will use 
the balance of the fiscal year 2005 funds to maintain options for HST 
servicing and deorbit. NASA has also begun the analysis of how a de-
orbit module for the Hubble Space Telescope could be added to the 
manifest of such a Space Shuttle servicing mission. I will make a 
decision regarding a Shuttle servicing mission for Hubble following the 
two successful Return to Flight missions. In the interim, the Agency 
will keep all stakeholders apprised as this work progresses. NASA 
remains committed to a world-class, affordable program of space-based 
astronomy.

                       PREPARING FOR EXPLORATION

    The fiscal year 2006 budget request of $3.2 billion for the ESMD 
includes $753 million for continuing development of the CEV, the 
vehicle that will serve as the core element for future exploration 
beyond Earth orbit. The CEV promises safer travel for astronauts into 
space, continuing U.S. human access to space as soon as possible after 
retirement of the Shuttle.
    Our earlier plans called for operational deployment of the CEV not 
later than 2014. However, given the role of the CEV as a replacement 
for the Shuttle in providing human access to space, we are now seeking 
programmatic alternatives to allow development of the CEV to be 
completed as soon as possible. Acceleration of the CEV program will be 
accomplished by down-selecting to a single contractor sooner than 
originally planned, and by deferring other elements of the Exploration 
Systems Research and Technology plan not required for the CEV or for 
the early phases of human return to the Moon.
    The fiscal year 2006 budget request includes $919 million (a 27 
percent increase) for Exploration Systems Research and Technology that 
will enable designs for sustainable exploration, including $34 million 
for a revamped technology transfer program and $34 million for the 
Centennial Challenges prize program. The Agency continues to seek the 
support of the Congress for authorization to enable larger prize 
awards. This budget also includes $320 million for a restructured 
Prometheus Nuclear Systems and Technology Theme for space-qualified 
nuclear systems. The technology and capabilities being developed by the 
Prometheus Nuclear Systems and Technology Theme are critical for 
enabling the power and propulsion needs of the Vision for Space 
Exploration. As part of the Agency's effort to define an Exploration 
Systems Architecture, NASA will examine alternative nuclear systems, 
including surface nuclear power, nuclear thermal, and nuclear electric 
systems. NASA will restructure Project Prometheus for space-qualified 
nuclear systems to support human and robotic missions with clear 
priorities focused on near-term needs. We expect to make program 
decisions to focus our nuclear technology efforts on our highest 
priorities for near-term applications as part of the Exploration 
Architecture study, to be completed this summer. In addition, the 
fiscal year 2006 budget request provides $806 million for Human Systems 
Research and Technology, which has been restructured so its programs 
are now linked directly to exploration requirements for human missions 
to the Moon, Mars, and beyond.

                          AERONAUTICS RESEARCH

    NASA's fiscal year 2006 request for the Aeronautics Research 
Mission Directorate is $852 million, a significant portion of the 
government's overall investment in aeronautics research. To make the 
most of this investment, NASA's technical expertise and facilities for 
aeronautics research are becoming more focused and results-oriented. 
NASA's current aeronautics research is focused on enhancing the public 
good. NASA is also working to maintain a strong basic aeronautics 
research program and to establish a series of far-reaching objectives, 
each of which, if enabled, could significantly transform civil 
aeronautics. The results from the basic research, technology 
development, and demonstrations achieved by NASA's Aeronautics efforts 
will be transitioned for use by both Government and industry. The 
President's fiscal year 2006 request increased the vital research of 
the Aeronautics program in Aviation Safety and Security and in Airspace 
Systems. These two priority programs are fully funded to ensure timely 
results critical to meeting national goals. NASA works closely and 
constructively with other Executive Branch agencies to enhance our 
Nation's aeronautics capability. In this vein, NASA, along with the 
Departments of Defense, Homeland Security, Commerce, and 
Transportation, is a principal member of the interagency Joint Planning 
and Development Office (JPDO), which was chartered by the Century of 
Aviation Revitalization Act to oversee research and technology efforts 
for the Next Generation Air Transportation System. NASA is working 
closely with industry consortia and other Government agencies to 
develop advanced aircraft demonstrations, such as those that would 
expand the capabilities of high-altitude, long-endurance, unmanned 
aerial vehicles, which could have numerous commercial, scientific, and 
homeland security applications.
    At this time, NASA is also working with other U.S. Government 
departments and agencies and industry to assess its facilities for 
aeronautics research. NASA will need to consider the possibility of 
closing some underutilized aeronautics facilities, while modernizing 
some others to become state-of-the-art facilities.
    As we move forward, a broader national dialog on aeronautics R&D 
goals may be appropriate as we enter the second century of aviation. 
These discussions should include a range of stakeholders and customers, 
including the Congress. This process could lead to a national consensus 
for aeronautics R&D goals.

                               EDUCATION

    NASA's fiscal year 2006 budget request includes $167 million for 
the Office of Education to support programs that will keep the United 
States strong in science, technology, engineering, and math education. 
NASA will establish clear goals, metrics, and monitoring capabilities 
for its education initiatives in the coming months to ensure that these 
funds will achieve the greatest benefit.

                        MEETING OUR OBLIGATIONS

    The fiscal year 2006 budget request of $6.8 billion for the Space 
Operations Mission Directorate (SOMD) reflects the first step in the 
Vision for Space Exploration: returning the Space Shuttle safely to 
flight and resuming flight operations. Going forward, all SOMD 
expenditures will be consistent with the retirement of the Space 
Shuttle by 2010, while maintaining operational safety of flight 
throughout the program. The fiscal year 2006 budget includes $4.5 
billion for the Space Shuttle program. The budget also provides $1.9 
billion for the ISS. NASA currently is examining configurations for the 
Space Station that meet the goals of the Vision for Space Exploration 
and needs of our international partners, while requiring as few Shuttle 
flights as possible to complete assembly.
    A key element in the future of the ISS program is the purchase of 
alternate cargo transportation services to supplement the Space 
Shuttle, and the development of new crew transportation capabilities to 
replace Shuttle when it retires. Because the ESMD has the mission to 
develop and acquire such crew and cargo capabilities for the ISS and 
beyond, I have transferred management responsibility for the activities 
and budget of ISS Cargo/Crew Services to ESMD from SOMD, as stated in 
the May update to NASA's fiscal year 2005 Operating Plan. The budget 
request before the Congress provides $160 million for these services in 
2006.
    We are making final preparations to return the Space Shuttle safely 
to flight in 2005. We have made more than 100 major maintenance 
modifications and upgrades to Discovery and its supporting systems, 
including new cabling and wiring that will support leading edge 
sensors, a digital camera, and a boom extension for the Shuttle's 
robotic arm that will enable us to inspect nearly all the outside areas 
of the orbiter's Thermal Protection System during missions. Technicians 
have installed the Forward Reaction Control System and the Reinforced 
Carbon-Carbon Nose Cap, and 88 sensors are being installed on each 
wing, of which 66 will measure acceleration and impact data, and 22 
will take temperature data during Discovery's journey. Discovery and 
its propulsion elements are now at the launch pad undergoing the final 
tests and checks required prior to launch, currently scheduled to occur 
not earlier than July 13, 2005.
    As the United States implements the Vision for Space Exploration, 
the Administration recognizes the value of effective cooperation with 
Russia to further our mutual space exploration goals. At the same time, 
we must appropriately reflect U.S. nonproliferation policy and 
objectives in our relationship with Russia. The Administration is thus 
seeking a balanced approach that continues to maintain strongly our 
nonproliferation goals while advancing potential U.S. cooperation with 
Russia on the Vision for Space Exploration. Such a balanced approach 
must include the Iran Nonproliferation Act of 2000 (INA), which 
currently constrains cooperation with Russia on the ISS, and threatens 
to have an adverse impact on cooperation with Russia in our future 
space exploration efforts related to human space flight. To that end, 
the Administration will soon engage the Congress, and we look forward 
to working with Congress to ensure that the Vision for Space 
Exploration is successful, while remaining fully consistent with 
broader U.S. national security and nonproliferation goals.
    This year, we began our fifth year of continuous astronaut presence 
on the ISS. Astronauts continue their international cooperation onboard 
the Station through a variety of joint research activities.

                           TRANSFORMING NASA

    For the last three decades, NASA and the Nation's human spaceflight 
program have been focused on the development and operation of the Space 
Shuttle and the Space Station. In its final report, the CAIB was very 
forthright in its judgment that these goals are too limited to justify 
the expense, difficulty, and danger inherent in human spaceflight, 
given the limitations of today's technology. The CAIB was equally 
forthright in calling for a national consensus in the establishment of 
a program having broader strategic goals. The Vision for Space 
Exploration proposed by the President is that program, and NASA has 
embraced this new direction. But to effect these changes, NASA must 
engage in a major transformation--taking the capabilities we have 
throughout the Agency and restructuring them to achieve these 21st 
Century goals. This is an enormous challenge, but we have begun to 
transform our entire organization to foster these changes and to 
enhance a positive, mission-driven culture.
    The CAIB was also clear in its assessment that the lack of open 
communication on technical and programmatic matters was a direct cause 
of the loss of Columbia. We have understood and embraced this 
assessment, and are absolutely and completely committed to creating an 
environment of openness and free-flowing communication by continuing to 
assess our leadership practices.
  --Embracing Competition.--NASA is embracing competition as a way to 
        elicit the best from NASA's Centers, industry, and academia. 
        The Agency is using competitive processes to encourage more 
        cost-effective, innovative solutions to the scientific and 
        technical challenges presented by the Vision. Over the past 
        year, competitive selections in exploration have demonstrated 
        increased collaboration between NASA's Centers and industry and 
        academia. The engine of competition is the primary force behind 
        the American economy, the greatest the world has ever known, 
        and we plan to make greater use of this engine than has been 
        the case at NASA in the past. NASA plans to pursue appropriate 
        partnerships with the entrepreneurial and commercial space 
        sector to the maximum practical extent.
  --The Role of the Centers.--While competitive processes are crucial 
        to maintaining NASA at the ``cutting edge'' of science and 
        technology, we must acknowledge that the NASA Centers and other 
        Federal research and development laboratories exist, and have 
        existed for decades, precisely because industrial competition 
        does not serve to accomplish all of our national goals. In 
        order to accomplish the national goals set forth by the 
        President and Congress, NASA must set realistic priorities 
        within limited resources. NASA Centers will have an important 
        role in definition of the architecture and requirements for 
        exploration beyond low-Earth orbit, and for the systems 
        engineering and integration functions used in building the 
        systems of that architecture. We will continue to assess the 
        skill-mix that we require, the number of people we require, 
        their location, and how we are organizing ourselves to fulfill 
        our obligations to the President and Congress. To begin to 
        create some of the workforce flexibility necessary for the 
        future, NASA has offered voluntary separation incentives 
        (buyouts) to employees in positions identified with excess 
        competencies. To the extent that NASA's workforce needs 
        revitalization, NASA will propose legislative initiatives to 
        the Congress as part of the Agency's draft fiscal year 2006 
        Authorization Bill. Congress's enactment of the NASA Workforce 
        Flexibility Act of 2004 is helping the Agency toward that end, 
        and additional authorities will provide even more aid in 
        managing the Agency's workforce.
  --Improved Decision-Making.--NASA recently transformed its 
        organizational reporting in order to provide more integrated 
        decision-making. NASA field Center Directors now report 
        directly to the Administrator, and I am drafting a position 
        description for a new Associate Administrator who will manage 
        the internal activities of the Agency. The Office of Education 
        reports directly to the Director of Strategic Communications, 
        who is also in charge of Public Affairs, External Relations, 
        and Legislative Affairs, in order to provide a more integrated 
        picture of what NASA is doing and can do for its stakeholders 
        and public. NASA's new Office of Program Analysis & Evaluation 
        has been created in order to provide analyses and assessments 
        for strategic planning and budgeting decisions, independent 
        cost estimates, evaluation of projects at major milestones, and 
        feedback from the Centers on their capabilities and work 
        climate. This is to ensure that the acquisition strategies, if 
        done as planned, are executable, have exit and entrance 
        criteria, contain clear approval milestones, and involve 
        independent reviews.
  --Improving Financial Management.--For the past two years, NASA has 
        received a disclaimer of audit opinion on its annual financial 
        statements due largely to two issues--financial system 
        conversion, and accounting for property, plant and equipment, 
        and materials and supplies. In fiscal year 2003, NASA converted 
        the 10 separate NASA Center accounting systems and the 
        associated 120 subsidiary systems, along with over 12 years of 
        historical financial data, into a single integrated Agency-wide 
        core accounting system. Problems associated with this 
        conversion have been greater than expected and are taking 
        longer than expected to correct. I regard improvement of NASA's 
        financial management as one of my priorities.
  --Capital Asset Management.--The management of NASA's capital assets, 
        valued at $37.6 billion (83 percent of NASA's assets on the 
        balance sheet), lacks the necessary internal controls and 
        systems to support the proper valuation for management analysis 
        as well as for audit purposes. Therefore, NASA is developing a 
        comprehensive plan that will reform the manner in which we are 
        accounting for and managing our assets.

            THE NATION'S FUTURE IN EXPLORATION AND DISCOVERY

    The aftermath of the tragic loss of the Space Shuttle Columbia on 
February 1, 2003, brought us to a watershed moment in the American 
civil space program. Choices had to be made. The President has put 
forth a choice, a strategic vision for the space program. That vision 
has been enunciated with exceptional clarity, and has been subjected to 
considerable public debate for over a year. While differences of 
opinion exist, the President's proposal has attained broad strategic 
acceptance. As a Nation, we can clearly afford well-executed vigorous 
programs in robotic and human space exploration, Earth science, and 
aeronautics research.
    For America to continue to be preeminent among nations, it is 
necessary for us to be the preeminent spacefaring nation. It is equally 
true that great nations need allies and partners in this journey. That 
is what the Vision for Space Exploration is about.
    As President George W. Bush said, ``We choose to explore space 
because doing so improves our lives and lifts our national spirit. So 
let us continue the journey.''

                                                         [Budget authority, dollars in millions]
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                 Full Cost
                                                 -------------------------------------------------------------------------------------------------------
      By Appropriation Account, By Mission          Initial       April         May
              Directorate, By Theme                Operating    Operating    Operating   Fiscal Year  Fiscal Year  Fiscal Year  Fiscal Year  Fiscal Year
                                                  Plan Fiscal  Plan Fiscal  Plan Fiscal      2006         2007         2008         2009         2010
                                                   Year 2005    Year 2005    Year 2005
--------------------------------------------------------------------------------------------------------------------------------------------------------
Science, Aeronautics, and Exploration...........     $9,334.7     $9,335.0     $9,051.0     $9,661.0    $10,549.8    $11,214.6    $12,209.6    $12,796.1
                                                 =======================================================================================================
    Science \1\.................................      5,527.2      5,527.0      5,554.0      5,476.3      5,960.3      6,503.4      6,853.0      6,797.6
        Solar System Exploration................      1,858.1      1,858.0      1,787.0      1,900.5      2,347.7      2,831.8      2,998.9      3,066.1
        The Universe............................      1,513.2      1,513.0      1,475.0      1,512.2      1,531.5      1,539.4      1,495.0      1,406.7
        Earth-Sun System........................      2,155.8      2,156.0      2,291.0      2,063.6      2,081.2      2,132.2      2,359.0      2,324.8
                                                 =======================================================================================================
        Exploration Systems \2\.................      2,684.5      2,684.5      2,356.0      3,165.4      3,707.0      3,825.9      4,473.7      5,125.5
        Constellation Systems...................        526.0        526.0        422.0      1,120.1      1,579.5      1,523.7      1,990.9      2,452.2
        Exploration Systems Research and                722.8        722.8        766.0        919.2        907.3        989.2      1,050.3      1,078.5
         Technology.............................
        Prometheus Nuclear Systems and                  431.7        431.7        270.3        319.6        423.5        500.6        614.0        779.0
         Technology.............................
        Human Systems Research and Technology...      1,003.9      1,003.9        897.7        806.5        796.7        812.4        818.5        815.8
                                                 -------------------------------------------------------------------------------------------------------
    Aeronautics Research: Aeronautics Technology        906.2        906.0        962.0        852.3        727.6        730.7        727.5        717.6
    Education Programs: Education Programs......        216.7        217.0        179.0        166.9        154.9        154.7        155.4        155.4
                                                 =======================================================================================================
Exploration Capabilities........................      6,704.4      6,830.0      7,114.0      6,763.0      6,378.6      6,056.7      5,367.1      5,193.8
    Space Operations............................      6,704.4      6,830.0      7,114.0      6,763.0      6,378.6      6,056.7      5,367.1      5,193.8
        International Space Station.............      1,676.3      1,676.0      1,676.0      1,856.7      1,835.3      1,790.9      2,152.3      2,375.5
        Space Shuttle...........................      4,543.0      4,669.0      4,964.0      4,530.6      4,172.4      3,865.7      2,815.1      2,419.2
        Space and Flight Support................        485.1        485.0        474.0        375.6        370.9        400.0        399.7        399.1
                                                 =======================================================================================================
Inspector General...............................         31.3         31.0         31.0         32.4         33.5         34.6         35.2         37.3
                                                 -------------------------------------------------------------------------------------------------------
      TOTAL.....................................     16,070.4     16,196.0     16,196.0     16,456.3     16,962.0     17,305.9     17,611.9     18,027.1
Year to year increase...........................  ...........  ...........  ...........          2.4          3.1          2.0          1.8          2.4
Emergency Hurricane Supplemental................        126.0  ...........  ...........  ...........  ...........  ...........  ...........  ...........
--------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ Science Mission Directorate reflects the combination of the former Space Science and Earth Science Enterprises.
\2\ Beginning in fiscal year 2006, Exploration Systems moves from Exploration Capabilities to Science, Aeronautics and Exploration. Exploration Systems
  Mission Directorate reflects the combination of the former Biological & Physical Research and Exploration Systems Enterprises.

Totals may not add due to rounding.

                        SPACE SHUTTLE RETIREMENT

    Senator Shelby. Thank you, Dr. Griffin.
    The proposed budget for NASA has the Space Shuttle 
scheduled for retirement in 2010. We have been talking about 
that. And the next man-rated vehicle, the crew exploration 
vehicle, CEV, is expected to be ready by 2014. The critical 
funding for the CEV, I understand, is dependent on the 
retirement of the Shuttle. It has been widely reported, Dr. 
Griffin, that you are an advocate of closing this 4-year gap--I 
mentioned it in my opening statement--in the U.S. launched 
manned space flight.
    Whenever I hear about the acceleration of such programs, 
concerns arise, being an appropriator, about cost increases and 
development setbacks. So how much do you anticipate 
accelerating the CEV will increase the near-term costs of this 
vehicle? And where will these funds come from?
    Mr. Griffin. Sir, the widely circulated reports of my 
dissatisfaction with the gap in manned space flight have the 
virtue of being true.
    Senator Shelby. I am glad. Thank you.
    Mr. Griffin. I am dissatisfied with those, and we will be 
working to close that gap.
    I will say at the outset that I cannot say, at this moment, 
what the near-term cost increases will be because that study 
effort is ongoing as we speak. When I have some knowledge of 
that, it will be communicated to this subcommittee and to the 
Congress. But let me outline the broad plan for things we might 
do to accomplish that.
    First of all, I might add also, I believe it is true, when 
one stretches a project out beyond its appropriate and natural 
lifetime, that also causes cost increases.
    Senator Shelby. It does.
    Mr. Griffin. The 10-year period that we have been planning 
on as our first plan to design and develop and procure the new 
crew exploration vehicle is a lengthy period of time relative 
to our prior history in manned spacecraft development, and I 
believe reflects lack of the best possible planning as much as 
it does any fiscal realities.
    That said, what could we do to make a difference? The first 
thing, as I have indicated, that we could do is we, NASA, have 
announced in our early planning documents to carry two 
contractors through 2008 before making a final down-select. I 
believe that the design of the crew exploration vehicle should 
be sufficiently straightforward, should be sufficiently within 
our experience base, that it may not be necessary to carry two 
contractors that long, that it may be more appropriate to down-
select earlier, as I said, in fiscal year 2006. That saves an 
amount of money on the order of $1 billion or more, which can 
be used in the near term to fully fund one vehicle.
    Second, some of our early planning has focused on the 
possibility of hardware demonstrations in mid-term development 
for the crew exploration vehicle. Those may or may not be 
necessary. We will be examining that, as we will be examining 
the rest of these issues, but certainly such early 
demonstrations will require money that might best be spent 
bringing the vehicle to completion.
    Third, as I have indicated, we have a substantial 
technology development line in exploration systems. I have been 
in charge, on behalf of the Defense Department in prior 
experience, of even more substantial technology development 
budgets, and I would say that, regarding my personal 
preferences, nothing would give me more pleasure than to sow 
the seeds widely in our NASA technology development. It has 
been a long time since we have been able to afford to do that. 
I would like to do it. But we must put development of new 
technology in second place behind the development of existing 
capability on the part of the United States to ferry astronauts 
and limited amounts of cargo to and from the Space Station and 
to get started down the path back to lunar return.

                  COST CONTROL AND TECHNICAL VIABILITY

    Senator Shelby. Doctor, along those same lines, financial 
responsibility, we have a great challenge, all of us here. What 
steps is NASA taking to ensure that the contracts it enters 
into are independently assessed for cost control and technical 
viability?
    Mr. Griffin. Sir, you raise a very important area. As I 
know that everyone knows, whether directly or not, you are 
referring to the fact that our audit posture is not a favorable 
one. We received at the end of 2004 a red audit. We expect to 
receive another one, I am told. We, NASA, need to frankly get 
busy on our financial accounting and make sure it passes all 
the tests.
    We also need, in terms of the conduct of our programs, to 
make sure that, when we sign contracts, they have clearly 
specified goals, funding profiles are clearly made available, 
and, in general, we know what we are doing.
    I am in the process of establishing a new Office of 
Program, Analysis, and Evaluation (PA&E), which will carry a 
set of forward-looking and backward-looking responsibilities, 
to wit: for backward-looking responsibilities, we will be 
assessing programs as they carry forward and determining 
whether they are meeting their cost schedule and performance 
goals, and making recommendations as to what to do if they fail 
with those.
    We will also be looking at our track record for the 
development of hardware in terms of cost and schedule, and we 
will be factoring those estimates from the past into our 
predictions for the future.
    Looking forward, the new PA&E office will carry the 
responsibility for strategic budgeting, making sure that we 
have appropriately accounted for all the exigencies which we 
can determine. And the new office will carry a directorate for 
advanced planning, helping to remove some of the responsibility 
for the advanced planning function from those mission 
directorates, which must carry it out. I have referred to this 
as eliminating the ``fox in the henhouse'' problem. I want my 
mission directorates focused on executing the direction they 
are given, rather than determining what that direction should 
be.
    I hope and believe that this new office will assume a major 
responsibility for helping to get our programs on track.
    Senator Shelby. Senator Mikulski.

                         HUBBLE SPACE TELESCOPE

    Senator Mikulski. Thank you, Mr. Chairman.
    Picking up, I would like to go right to the Hubble space 
telescope. You know the history. Administrator O'Keefe was 
going to cancel the Hubble. He did agree to seeking a second 
opinion, and the National Academy of Science recommended that 
we do it, and they recommended two possibilities: a robotic 
mission to repair Hubble robotically--not repair but give it 
its batteries and its new optics; and then the other was a 
Shuttle mission for which there is some question about the 
safety of the astronauts.
    Now, where are you on the Hubble? And where do you see us 
going? And in support of Hubble, what will it take from this 
subcommittee to support you to do that?
    Mr. Griffin. Senator, as I believe this subcommittee and, 
indeed, most of the world paying attention to Hubble knows, I 
have committed to re-examine the decision to do a Shuttle 
Servicing Mission 4, SM-4, in support of Hubble refurbishment 
and upgrades once we have accomplished our return-to-flight 
objectives.
    To recap the reasons behind that statement, I would say 
that Administrator O'Keefe's decision made in the aftermath of 
the loss of Columbia, and before we had our return-to-flight 
planning fully fleshed out, was the reasonable one for the 
time, but when we return the Shuttle to flight, it will be 
essentially a new vehicle, and in some specific ways it will 
require careful examination to assess its ability to support 
SM-4, and that is what we will do. It is appropriate, I think, 
then to reconsider that earlier decision in light of the fact 
that we will be flying, you know, a very much improved vehicle 
and to assess the relative risks of a Hubble mission.
    The National Academy did suggest that the human servicing 
mission was the proper path to go down, and in addition, there 
was an independent committee established to assess the 
feasibility of a robotic servicing mission. Before I was 
nominated to head NASA, I was the head of that independent 
commission. I think it is safe to say, although my tenure on 
that committee was interrupted by President Bush's nomination 
of me to serve as Administrator, I spent enough time with that 
committee to know definitely that each and every person on that 
committee, all of them very capable engineers and scientists, 
believed that the robotic mission was infeasible to accomplish 
within the time available before Hubble would degrade 
irreversibly and within any reasonable amount of money that 
could be appropriated to accomplish it.
    I believe that is the best technical judgment that we will 
get concerning the feasibility of robotic servicing of the 
Hubble within the available time, and I think we should simply 
get off that page.
    Senator Mikulski. Without getting on to the page, first of 
all, number one, we thank you for taking this so seriously and 
giving it such a high level of professional attention. In your 
testimony, both on page 3 and 6 about the Hubble, as I 
understand it, you say servicing of the Hubble will depend on 
the performance of the return to space on the Shuttle safely 
and the return of the astronauts and that it would take two 
missions to do that, to assess whether, according to the 
testimony on page 3 and 6, whether the station was up to a 
Hubble mission.
    My question then: What would be the timeline where you 
would see those two missions being accomplished? And in the 
meantime, what should Goddard do? Does it just stand down and 
we could lose everybody and everything? Or do you see things 
moving forward in a simultaneous way? And what would be the 
price tag on that if that is your administrative 
recommendation?
    Mr. Griffin. Yes, Senator. I will return to this in a 
moment, but it is correct that we need the two Shuttle return-
to-flight missions in order to fully assess certain technical 
issues that I will get to in a moment.
    If we were to wait for the conclusion of those two missions 
to begin work at Goddard on SM-4, we would, if I could use a 
colloquial expression, get ourselves behind the eight ball on 
doing that servicing. And so I----
    Senator Mikulski. It would be too late.
    Mr. Griffin. It would be too late.
    Senator Mikulski. So when do you----
    Mr. Griffin. So I have directed Goddard to begin work on 
Shuttle Servicing Mission 4 under the assumption that we will 
be successful with return to flight and in our technical 
assessment of Shuttle capabilities. The first return-to-flight 
mission should occur in July, the second one in September, and, 
by that time, we will have accomplished the detailed test 
objectives we need to accomplish in order to know that it will 
be safe and effective to allow astronauts to service Hubble 
from the Shuttle.

                        EARTH AND SPACE SCIENCES

    Senator Mikulski. Well, we, of course, wish Godspeed to our 
astronauts, and I know Senator Hutchison will be raising some 
important Shuttle questions, I presume. Number one, that is 
heartening. Number two, we look forward to talking about what 
we need to put in the appropriations to keep the simultaneity 
of these two endeavors going.
    But if I could add just another thing--because we need to 
address the Shuttle; we are Shuttle obsessed, as you can 
imagine. Earth science and space science, do you see new--as 
you know, there was another National Academy study that said we 
were losing ground on the study of Earth science, that projects 
were either descoped, delayed, detoured, derailed, et cetera. 
And now with NOAA being in this subcommittee, do you see the 
potential to continue or to focus on a true Earth science set 
of projects that truly serve this Nation and even friends 
around the world in terms of understanding our planet both in 
terms of any number of aspects that have a great impact, from 
atmospherics to ocean currents to ocean winds and a variety of 
other things that truly impact the global environment and also 
how to make those projections that save lives and save 
livelihoods, kind of a NOAA, NASA, and perhaps NSF partnership?
    Mr. Griffin. Yes, Senator, I absolutely look forward to 
enhancing the NOAA, NASA, and NSF partnership in Earth science. 
Several comments on your points.
    First of all, we at NASA have heard the response of the 
community to the changes we made or proposed and carried out in 
our science program in fiscal year 2005. We had allocated, and 
planned to allocate, in fiscal year 2006 a substantial 
increment to funding Mars exploration, robotic Mars exploration 
in the out-years. We have withdrawn from that and are 
rebalancing our portfolio to again provide emphasis on Earth 
science as an important part of our portfolio. So we have heard 
the response of the science community, and we in turn are being 
responsive. And you will see that as we go forward in our op 
plan for 2005 and in 2006.
    Senator Mikulski. Well, my time is up, and if we have a 
second round, we will return to some other important issues.
    Senator Shelby. We will have a second round.
    Mr. Griffin. Okay.
    Senator Shelby. Senator Hutchison.

                           BUDGET PRIORITIES

    Senator Hutchison. Thank you, Mr. Chairman.
    Dr. Griffin, we have heard that some Members of the House 
have urged moving funds from the International Space Station 
budget for 2006 into the aeronautics line to offset the 
proposed reductions in that area. That was the President's 
budget, and clearly having the International Space Station and 
the return to flight are the highest priorities. I wanted to 
ask you if you can tell the subcommittee what impact any 
reduction such as that in the International Space Station 
funding would have. And will you oppose that?
    Mr. Griffin. Senator Hutchison, I am the President's 
appointee and I support the President's budget. The 
administration's allocation of relative priorities between 
human space flight, science, and aeronautics is clear, and I do 
not propose any changes to those priorities.
    Within those lines, we may choose to emphasize or de-
emphasize certain things, but I simply cannot support moving 
money from completing the assembly of the International Space 
Station to any other activity.
    Senator Hutchison. Thank you.
    The Space Shuttles were originally intended to be capable 
of flying 100 missions. The Columbia had flown the most at 27. 
When you were talking about the expense of making the Shuttles 
go longer, I am sure that maintaining them does get more 
expensive as they grow older. But is that still something that 
would be more feasible since they were supposed to have been 
able to have longer terms anyway as a way to lengthen--or 
shorten the gap between the crew return vehicle coming on if, 
in fact, you are not able to bring that in at an earlier stage?
    Mr. Griffin. Senator, I cannot support that position. 
Again, I am the President's appointee, and the administration 
is committed to Shuttle retirement in 2010. The expense of 
maintaining the Shuttle fleet year after year is so great that, 
in order to move effectively ahead on the crew exploration 
vehicle systems, we must retire the Shuttle. We must retire it 
in an orderly fashion. We must fly every flight safely. But we 
must get it behind us.
    The Shuttle is inherently flawed. It does not have an 
escape system for its crew, and we all know that since human 
perfection is unattainable, sooner or later there will be 
another Shuttle accident. I want to retire it before that 
flight can occur.
    I want to work with you and this subcommittee to understand 
how we can accelerate the development of the crew exploration 
vehicle so that there is the minimal possible gap in 
transitioning from one system to another.
    On a personal note, in my late 20s and early 30s, I was 
working in the space program, as I have most of my life, when 
we underwent a 6-year gap between the completion of the last 
Apollo, the Apollo-Soyuz flight, and the first Shuttle flight. 
That gap damaged our program. It damaged our unmanned program 
as well. It was damaging to the United States. I don't want to 
do it again, and I know you share that view. But the way to 
prevent that is not to continue to rely upon the Shuttle, which 
is an outdated system, but to move as expeditiously as we may 
toward the new system. And that is what I am here to support.
    Senator Hutchison. I accept that, and I think you have made 
the case very well. Let me ask you this: If you are going to 
put more emphasis on the crew return vehicle, there have been 
other suggestions that you would take money out of the basic 
research budget and the International Space Station. Is that 
something that would be viable in your mind? And what impact 
would it have on the long-term national science asset that we 
have there if you take money from the research projects in the 
Space Station for the crew return vehicle?
    Mr. Griffin. Senator, the impact would be of delay, not of 
deletion. Yes, if I need the money to close the gap in human 
space flight between the end of the Shuttle program and the 
beginning of its replacement, my recommendation would be to 
take money from the research to be done on Space Station or 
other exploration systems research and technology development, 
simply because, as I said in my opening statement, we cannot do 
everything on our plate and we have to have priorities and 
first things first.
    Now, the research of which you speak is very valuable, and 
it must be done. But if it is delayed a very few years in order 
to allow us to complete, in effect, a suitable transition 
between systems, then I believe that that delay would be worth 
it, and that would be where I would look for the money.
    Senator Hutchison. Let me just ask my final question then. 
If you did something like that, you do not mean that you would 
stop all of the research on the Space Station at any point, do 
you? Or would it be just some projects that could be put off?
    Mr. Griffin. The phrase I have used is that when cutting 
budgets, you need to use a meat axe rather than a scalpel--or a 
scalpel rather than a meat axe, pardon me.
    Senator Hutchison. Thank you.
    Mr. Griffin. Yes. It needs to be done carefully. We would 
obviously not go in and stop, on a wholesale basis, everything 
which is ongoing. Stopping projects in their middle is usually 
not an effective way to save money. I would look generally 
toward delaying projects which have not yet started.
    The Space Station, once built, will be an excellent 
platform for a number of different kinds of engineering, 
physical science, and biological research. And we will do that. 
It will be flying for many, many years. But if, in order to 
produce the next vehicle, which will allow us to ferry 
astronauts back and forth to the Space Station, I need to delay 
some of that research, then that is what I will have to do.
    Senator Hutchison. ``Some'' is the operable word.
    Mr. Griffin. Yes.
    Senator Hutchison. Thank you.
    Mr. Griffin. Thank you, Senator.
    Senator Shelby. Senator Cochran.
    Senator Cochran. Mr. Chairman, thank you.
    Let me first congratulate you, Mr. Chairman, on assuming 
the responsibility of chairing this subcommittee with an 
enlarged scope of jurisdiction.
    Senator Shelby. Thank you.
    Senator Cochran. We look forward to working closely with 
you to help ensure that we meet our goals and identify our 
priorities in a thoughtful way. And I think starting the 
process with a new Administrator of NASA is an exciting 
opportunity for all of us. I want to congratulate you, Dr. 
Griffin, for your selection as Administrator of this important 
agency and say that we appreciate the fact that you are a 
person of experience, a great deal of education in these 
technical and scientific areas. I was just looking at the 
number of Master's degrees that you have been awarded at 
various universities, and it is really quite impressive, and I 
hope you do not mind my referring to you as ``Dr. Griffin,'' 
because you did get a Ph.D. also, and that was in the 
University of Maryland system, which I know Dr. Mikulski may 
identify with, with some pleasure. This is a big job, and I 
know you are well suited and totally well qualified for it. And 
even though you have indicated that you support the budget 
request because you are the President's nominee and you are in 
this position to carry out these policies, we do notice that 
the research funding has been reduced because, I guess, of the 
increase in exploration initiative costs, over $675 million for 
the Moon and Mars exploration initiative. So this decreases 
other activities.
    Have you looked at ways that you can balance that 
competition inside the agency so that there is not any serious 
harm done to interests for traditional activities that have 
been carried out by NASA?
    Mr. Griffin. Senator Cochran, the science budget in the 
large at NASA has not been cut to serve the needs of 
exploration, Moon and Mars. The science budget request for 2006 
is $5.5 billion. We expect it to grow with inflation in the 
out-years. We have not, and, unless under the most extreme 
budget pressure, I would not, cut science in order to fund 
manned space flight. I believe that NASA has several 
substantially differing activities: human space flight, 
science, and aeronautics.
    The President's priorities among those differing activities 
are expressed in his fiscal year 2006 budget, as are the 
proportions among those numbers, and I would intend to respect 
those proportions. If we need to solve problems in human space 
flight, we will do it within the human space flight suite of 
activities.
    So I must respectfully suggest we have not cut the science 
budget in order to do exploration. In fact, I would say that 
the exploration budget has been reduced and exploration 
activities have been delayed in order to accommodate Shuttle 
return-to-flight costs.

             INTERNATIONAL COOPERATION IN THE SPACE PROGRAM

    Senator Cochran. In looking at the global situation in 
terms of our relationships with other countries and cooperation 
in the space program--Russia has been actively involved in the 
manned program for a good many years--are there other nations 
that are interested or active in becoming partners in space 
exploration?
    Mr. Griffin. Senator, I have not had the opportunity to 
assess that yet. I will be, in fact, attending the Paris Air 
Show next month, and there will be, as you know, other 
international events at which my attendance will be expected, 
and I will be there. And then there will be formally arranged 
meetings, government-to-government meetings as well. And in the 
course of the next few months, I hope to get a feel for which 
nations wish to join us in this venture. I hope there are some.
    I think one of the best things to come out of the Space 
Station program is the international partnership that has been 
developed, and the administration takes very seriously this 
Nation's commitments to those partners. So I look forward to 
it. I have not had an opportunity to assess it yet.
    Senator Cochran. Well, we look forward to working more 
closely with you as we go through this budget process, and we 
intend to closely consult with you along the way to be sure 
that we cooperate in supporting the administration's 
initiatives in these areas. We appreciate your leadership.
    [The statement follows:]

               Prepared Statement of Senator Thad Cochran

    Mr. Chairman, I am pleased to join you in welcoming Dr. 
Griffin to the hearing today. NASA's history is without 
comparison. Continued human exploration will broaden our 
understanding of the universe, and coupled with its dedicated 
pursuit of scientific research, NASA will help secure our 
nation's position at the cutting edge of technology well into 
the future.
    Dr. Griffin, I note that you are a man of action. While you 
have been in your job for less than a month, you have already 
made important decisions for the future of NASA, to include 
awarding the Shared Services Center contract and accelerating 
the development and launch of the shuttle replacement into 
orbit.
    Stennis Space Center in Mississippi has been known for its 
engine testing work, and I am proud to acknowledge the recent 
selection of Stennis as the location for the NASA Shared 
Services Center. We welcome the center to Mississippi and look 
forward to the contribution that the men and women of 
Mississippi will make to help NASA be more efficient in 
conducting its administrative activities.
    I look forward to working with you in the future and to 
hearing your testimony today.

                          NUCLEAR POWER SYSTEM

    Mr. Griffin. Thank you, Senator, and I will offer you my 
full cooperation as Administrator.
    Senator Shelby. Dr. Griffin, Project Prometheus has been a 
priority for NASA over the past 2 years. This nuclear program 
has the potential of providing great benefit to future NASA 
missions and the exploration vision. However, the Jupiter Icy 
Moons Orbiter mission has been determined to be too technically 
difficult, and the same operating plan you have mentioned in 
your written testimony also includes a reduction of $161 
million to the Prometheus program to reflect the mission 
deferment.
    With the deferment of the Jupiter Icy Moons mission, NASA 
is looking at alternative missions to demonstrate a nuclear 
power system in space. Was the Jupiter Icy Moons Orbiter 
mission too ambitious? If so, what are the possibilities that 
NASA intends to explore? And how will this affect the funding 
level from Prometheus in the 2006 budget?
    Mr. Griffin. Senator, there were several questions there, 
and if I miss one, you can remind me. Let me address the 
issue----
    Senator Shelby. I bet you won't miss one.
    Mr. Griffin. I don't want to bet too much, but we will try.
    The Jupiter Icy Moons Orbiter mission was, in my opinion, 
too ambitious to be attempted. Let me give a couple of 
specifics.
    The vehicle would have required at least two heavy-lift 
launches to put into orbit where it would have been assembled 
prior to its departure from Earth to go to Jupiter. That would 
have been an extremely expensive undertaking, one which we have 
not performed before.
    The nuclear electric propulsion system being developed for 
it does not presently exist, would not exist for some time, and 
if successfully developed, would have required approximately 
twice the world's annual production of xenon to be fueled to 
carry out the mission. It was not a mission, in my judgment, 
that was well formed.
    The original purpose of the Jupiter Icy Moons Orbiter was 
to execute a scientific mission to Europa, a moon of Jupiter 
which is extremely interesting on a scientific basis. It 
remains a very high priority, and you may look forward in the 
next year or so, maybe even sooner, to a proposal for a Europa 
mission as part of our science line. But we would, again, not 
favor linking that to a nuclear propulsion system.
    With that mission taken off the table as being something 
just too big for our plate at this time, the question then 
arises as to what shape and form we want the space nuclear 
program to be. I will say categorically we cannot effectively 
explore space without nuclear power and in the longer run 
nuclear propulsion. But having taken JIMO off the plate, 
Jupiter Icy Moons Orbiter, the proper ordering of priorities 
now changes.
    The first thing we will need is surface nuclear power for 
our astronauts when they return to the Moon in a decade or so. 
The next thing we will need will be nuclear thermal 
propulsion----
    Senator Shelby. How difficult will that be?
    Mr. Griffin. Sorry, sir?
    Senator Shelby. How difficult will that be?
    Mr. Griffin. We need to execute some development programs 
that we have not done in a while, but many nuclear reactors 
have been flown in space--one by the United States, many by the 
former Soviet Union. We have that technology. We merely have to 
integrate it again.
    Nuclear thermal propulsion will be the next step. A nuclear 
upper stage is the most effective way to take humans to Mars. 
The United States had prototype versions of such engines back 
in the late 1960s and early 1970s. In 1972, when President 
Nixon decided that the Nation would not be going to Mars under 
his tenure as President, the NERVA, nuclear engine for rocket 
vehicle applications, program was terminated. We have not had a 
need for such a program in the last three decades. As we 
journey forward to Mars, we will need it.
    Finally, the last priority would be the nuclear electric 
propulsion which was linked to JIMO, and that will be useful 
for cargo missions to Mars, but well after we start sending 
humans there.

    MAINTAINING SKILLED WORKFORCE WITHIN SPACE SHUTTLE AND STATION 
                               ACTIVITIES

    Senator Shelby. Doctor, in another area, to what extent 
will it be possible or even desirable to maintain employment of 
skilled workers currently involved in Space Shuttle and station 
activities as NASA transitions to a post-Shuttle era and 
reduces its station-related programs?
    Mr. Griffin. Senator, it will be absolutely crucial. As I 
pointed out earlier in response to Senator Hutchison's 
question, I, as a professional, lived through the gap in manned 
space flight from 1975 to 1981, and I do not propose to repeat 
it. One of the things that happened during that period was the 
loss of skilled and experienced personnel in space flight of 
all varieties, both manned and unmanned, to other pursuits. 
When those people have gone to other occupations, our 
experience is we do not get them back. So we must effect an 
orderly transition from the shuttle to the new system.
    I owe this Congress a plan for doing that, and I have said 
on several occasions in several ways that the first step is 
minimizing that gap.

              FIELD CENTERS ROLE IN THE PROMETHEUS PROGRAM

    Senator Shelby. What is your view, doctor, of the role of 
the field centers in the Prometheus program? In other words, do 
you believe that the program is doing a good job of utilizing 
the full range of research and development capabilities that 
exists within the field centers, and if not, what action do you 
plan to take to employ the technical talent base within NASA?
    Mr. Griffin. Senator, the question was applied by you to 
Prometheus, but it goes beyond that. I have not had an 
opportunity to look at the Prometheus program directly. As I 
said, we will be restructuring it, not because it is not a 
valuable program, it is incredibly valuable, but I want to 
change the definition of what is produced first.
    Senator Shelby. Sure.
    Mr. Griffin. Now, with regard to your broader question of 
what are the value of the field centers, I have also in public 
utterances been most specific on this point. The President's 
Vision for Space Exploration is a multi-generation program. It 
will require decades. The people who will be taking us to Mars 
are in elementary and middle school today. Contractors and 
businesses come and go. They succeed and they fail. The 
Government ownership of the intellectual property that sustains 
our space exploration journey will be with us always, as long 
as there is a Government.
    The core capability, the core intellectual property that 
will sustain this journey, must reside within NASA as an 
organization, and in particular within the NASA field centers. 
I am committed to maintaining and to restoring capability where 
we need to do it. I am committed to changing the skill mixes of 
the centers as we transition from a Shuttle operations culture 
to the development culture required for the new vehicle systems 
we must bring about. But in the process of adjusting the 
details of how the field centers accomplish their missions and 
what they do, I am committed to retaining strong field center 
capability.

                       HEAVY LIFT LAUNCH VEHICLE

    Senator Shelby. Doctor, what is the status of planning for 
a heavy lift launch vehicle to send large quantities of mass to 
low Earth orbit or directly to the Moon?
    Mr. Griffin. Senator, that is a very interesting question. 
I can plan the development of a heavy lift launch vehicle from 
a clean sheet of paper, which would likely be too expensive for 
this subcommittee or the full committee to provide me the 
money, or I can utilize the heavy lift launch vehicle that I 
presently own as the NASA Administrator, which is the Space 
Shuttle. We talk about retiring the Space Shuttle. What is 
really meant is that we need to retire the Space Shuttle 
Orbiter. The Space Shuttle is a system of systems. It consists 
of a number of very, very valuable, very expensive to develop 
components, the Shuttle external tank, the Shuttle solid rocket 
boosters, Shuttle main engines and other lesser things, as well 
as the assembly and launch pad infrastructure at the Cape.
    Every time that stack lifts off, it carries 120 or 20 
metric tons into orbit. If I remove the orbiter and put on a 
cargo module, I have a heavy lifter. To me, I have indicated on 
several occasions, that seems the shortest path to a heavy 
lifter. If money were free and being provided in unlimited 
quantities, I would enjoy the challenge of developing a new 
vehicle, but we all know it is not, so I believe that that is 
the appropriate way forward.

                            LAUNCH VEHICLES

    Senator Shelby. Where are we regarding the expendable 
launch vehicle versus a Shuttle derived launch vehicle?
    Mr. Griffin. Do you mean the evolved expendable launch 
vehicle?
    Senator Shelby. Yes, evolved.
    Mr. Griffin. The evolved expendable launch vehicle 
families, offered by Lockheed Martin and Boeing, are the 
Nation's transportation fleet for payloads of 20 metric tons or 
less, and I certainly would propose no NASA development of such 
vehicles because we do not need more.
    In terms of payload capability above about 20 metric tons, 
the field is open, and again, from NASA's perspective to meet 
my heavy lift needs, I would probably stick with what I have. 
Again, we need to make these judgments on a cost basis and I am 
in the process of assessing those costs, but it looks likely to 
me that sticking with what I have is the way to go.
    Senator Shelby. Senator Mikulski.

                    STATION ASSEMBLY-SHUTTLE FLIGHTS

    Senator Mikulski. Thank you, Mr. Chairman.
    I want to pick up a line of questioning both from Senator 
Shelby and Senator Hutchison, and it goes to the Shuttle and 
the completion of the station. How many flights will it take to 
complete the station, how many Shuttle flights, and how long do 
you anticipate that this is going to take?
    Mr. Griffin. Senator, the current plan on the table at NASA 
is a 28 flight sequence, of which 18 flights are assembly 
flights, 5 flights are logistics flights, and 5 are utilization 
flights. I have indicated, in response to the Senator's 
question, that some of the research to be accomplished on the 
utilization flights could be deferred until we have a new 
system. With some time to plan, 2 or 3 years in the future, out 
to 2008 or so, some of the logistics flights cargo could be 
offloaded onto expendable vehicles, the Arian Transfer Vehicle, 
the Japanese HTV or new commercial systems which we would 
develop.
    That leaves a core of 18 Shuttle assembly flights. Again, 
with time to plan, even some of that hardware could be put up 
by alternate means, but right now we are looking at a core of 
about 18 assembly flights.
    Senator Mikulski. Well, let me jump in here because first 
of all, again, we are very concerned about the Shuttle, the 
safety of our astronauts, but also those 15,000 people, both 
contractors and civil servants who are employed.
    Now, it is 2005. We are talking about retiring the Shuttle 
in 2010. So that gives us essentially 4\1/2\ years to do 15 
flights. Do you think it can be done? Well, actually, that is 
not the question. I am really concerned that with the magnitude 
that it will take to complete the station, and we know it must 
be completed for both scientific reasons, and honoring our 
commitment to international partners. We do not want to 
jeopardize that relationship because we are going to need it, 
we both need and want international partners for other things 
that we hope to do in space. But my point is then, if you have, 
let us just say 18 in 4\1/2\ years, that seems like a robust 
schedule, given the fact that by the time we do the next two 
flights, presuming everything goes the way we hope, that will 
be--we are then into 2006. So that gives you 2006, 2007, 2008, 
et cetera. How do you see all of this unfolding?
    Mr. Griffin. Directly answering your question, it is an 
extremely robust schedule. We are not sure we can accomplish 
it. We are looking at alternative assembly sequences for the 
Shuttle that we would use in case we are not able to get all 18 
assembly flights accomplished with the Shuttle. I will provide 
a set of options for this Congress by midsummer.
    Senator Mikulski. I think what we are looking at then is 
the impact on the workforce, and also presuming then that they 
are working nonstop to do this, we would be concerned about 
then its impact on safety, just even general fatigue, of both 
people and the Shuttle itself. We have three orbiters and one 
has to go, one has to be ready to go, and one is taking a 
breather. That is kind of a liberal arts graduate's description 
of this.
    But then, of course, what would be the cost to do this? 
Will it accelerate, et cetera? I think you might not be able to 
do this today. We know you support the President's budget, but 
we would like to also know the consequences of this because we 
are then talking about five or six flights a year, and we have 
not even ever met that--have we ever met that type schedule?
    Mr. Griffin. I believe we have, but it was very difficult, 
and it was in a different environment. With the care that we 
are taking today we are not planning on a six flight per year 
schedule. We would need roughly four flights a year to fly 20 
flights in the fiscal years 2006, 2007, 2008, 2009 and 2010.
    Senator Mikulski. And with one flight hopefully going to 
Hubble.
    Mr. Griffin. And one going to Hubble.
    Senator Mikulski. Which would be an additional flight.
    Mr. Griffin. Senator, your question is extremely on point. 
There is no question, as I said before, it is an extremely 
aggressive schedule and we must have fall-back options if we 
are not able to meet it, because we do not want the program to 
be schedule driven. We do not want safety to be compromised. We 
will provide, by midsummer, a set of options that we can offer 
to avail ourselves of if we are not able to carry out the 
aggressive flight rate required to get all 18 assembly flights 
completed by the time we are ready to retire.
    Senator Mikulski. I think this subcommittee is looking 
forward very much to working with you and with our authorizer, 
Senator Hutchison, on this endeavor.
    I had the good fortune to visit Texas with Senator 
Hutchison to see the kinds of research that we are talking 
about in the Shuttle, and also at Marshall, physical science, 
life science, that could be stunning, and that for an 
international partnership to have a completed Shuttle where we 
are really working together on breakthrough ideas, I think 
would go a long way to science, a long way to international 
cooperation. I think the world would feel better about the 
United States and its preeminence in space, particularly in the 
civilian side. So we want to be able to do that.
    I know that my time is up, and my next area would be of 
course aeronautics.
    Senator Shelby. Senator Hutchison.

                 INTERNATIONAL SPACE STATION COMPLETION

    Senator Hutchison. I just want to follow along with what 
Senator Mikulski was saying because it seems to me that you 
have got two major priorities here. You were very firm about 
wanting to retire the Shuttle on time, but also equally firm, 
as is the President, on finishing the Space Station for all of 
the reasons that Senator Mikulski said. If we cannot finish the 
Space Station with what you have available--let me rephrase. 
Are you prepared to say that finishing the Space Station is the 
top priority?
    Mr. Griffin. Well, the administration has said that we will 
finish the Space Station. For the next 2 to 3 years, 
unequivocally, we are dependent upon the Shuttle to go to the 
Space Station and begin the process of completing that 
assembly. If we look further out, there are alternative means 
we could engage to get that hardware up there, and we of course 
would look at that because we need options. In the longer term, 
if time comes to retire the Shuttle and we are not finished, 
then I have said for the record on several occasions, both 
before and after becoming Administrator, that the United States 
should complete the station, but we may again encounter some 
delays in accomplishing that until we have the new system on 
board.
    I do want to complete it. I think it is worth a lot for the 
United States to keep its word, to maintain our obligations to 
the partnership and to go forward together, and we will try to 
do that.
    All we are discussing here are ways and means of 
accomplishing it, not whether or not the President is committed 
to completing the station, because with his speech of 1 year 
ago and his budget in 2006, he clearly is committed to that 
completion.
    Senator Hutchison. As all of us have said, we are going to 
work with you. We know that you have to have time to put 
alternatives together, but just one more time to reemphasize, 
in addition to keeping our word to the international community, 
which is very, very important, it just seems if we are not 
committed to the science that one of the key reasons that we 
have NASA is diminished, and I do not want to ever have any 
indication that the actual science that will be done at the 
Space Station is in any way a lesser priority.
    Mr. Griffin. Yes, Senator. I do not think it is a lesser 
priority either, but again, if the funding to do science is 
getting in the way of the funding to complete the station, I 
would be presented with a Hobson's choice. I will work with you 
and with the subcommittee to minimize the dislocations, but if 
completion is the first priority, I must do what I must do.
    Senator Hutchison. I understand, and we will work with you 
in every way. I just hope we do not end up being the hospital 
that is clean because there are not any patients.
    I mean we really have to----
    Mr. Griffin. Yes, Senator, I understand.
    Senator Hutchison [continuing]. Remember the mission.
    Thank you.
    Mr. Griffin. I understand.
    Senator Shelby. Thank you, Senator.
    Dr. Griffin, as we move forward how many Shuttle flights do 
you think will be needed to complete construction of the 
International Space Station?
    Mr. Griffin. Well, again, the final answer on that may 
depend on the outcome of some of the studies we have ongoing 
and which I have promised to you by midsummer, and I understand 
that commitment. The current baseline is 18 assembly flights, 5 
logistics flights, 5 utilization flights.

                        INTERNATIONAL AGREEMENTS

    Senator Shelby. In regard to international partners, it no 
longer seems that NASA plans to provide everything that it 
promised or could in international agreements that govern the 
International Space Station program. What discussions are 
planned or underway with the other partners to rebalance what 
each partner is required to do and what it gets in return? In 
other words, where are we going there?
    Mr. Griffin. Senator, as we stand today, we are committed 
to orbiting the partner hardware and providing the partner 
flights. Disasters can ensue, as we know. If there is any 
planned change to that, I would come forward to this 
subcommittee and discuss it first.
    Senator Shelby. Have any agreements been made in this 
regard at this time?
    Mr. Griffin. Not at this time.

                          FINANCIAL MANAGEMENT

    Senator Shelby. Okay. Financial management, we have to do 
this because we are in appropriation business here. NASA 
continues to face significant challenges in improving financial 
management. I know you have not been at NASA long, but in the 
past 2 years NASA's auditors were unable to issue an opinion on 
NASA's financial statements because NASA could not provide the 
auditors with sufficient evidence to support the statements. 
While NASA implemented a new integrated financial management 
system in 2003, NASA auditors found pervasive errors in 2004 
financial statements generated from the new system. In October 
of this past year, the NASA Inspector General reported that one 
of the most serious management challenges facing NASA is, and I 
quote, ``ensuring that the integrated financial management 
system improves NASA's ability to allocate costs to 
programs''--we have been talking about this--``efficiently 
provides reliable information to management and supports 
compliance with the Chief Financial Officer's Act.''
    Also in January of this year, 2005, the Government 
Accountability Office, in its High Risk Series Report stated, 
and I quote, ``While it has taken recent actions to improve the 
contract management function, NASA continues to face 
considerable challenges in implementing financial management 
systems and processes that would allow it to manage its 
contracts effectively.''
    My question, Dr. Griffin is, does NASA have a written 
corrective action plan that addresses the scope of its problems 
and the resources at the time that will be needed to fix these 
problems pointed out by the Inspector General and GAO?
    Mr. Griffin. Senator, we do not at this point. I take the 
GAO's comments and our independent auditor's comments as 
seriously as I know how to say. We understand, as an Agency, 
that our financial accountability has been lacking. I will not 
hedge. We have lacked that. I have, as we speak, a team of 
people working on putting a plan together for how we will get 
from where we are to where you require and where we want us to 
be.
    Senator Shelby. You are committed to doing whatever is 
necessary?
    Mr. Griffin. I am absolutely committed to providing the 
resources necessary to get our financial management on track, 
and I will share with you the plan to do that when we have it.
    Senator Shelby. What obstacles have you encountered that 
would have an impact on your financial management efforts? Are 
you there yet?
    Mr. Griffin. We are really not. I have not been able to see 
obstacles so much as we simply have not stepped up to the plate 
on it. The major aspects of the situation are driven, as you 
know, by the fact that NASA has 10 field centers. They did not 
even historically all come from the same agencies. Some came 
from the Department of Defense (DOD), some were created out of 
a whole cloth, some came from NACA. They evolved their own 
financial management systems and they were never really linked 
up. Part of our integrated financial management plan, as the 
name implies, is to have, if you will, one NASA, one system, 
and be able to account for all the money in a common framework. 
Linking those 10 centers and headquarters together in a 
transparent and straightforward way has proven to be more of a 
challenge than anyone had thought. Clearly it has, because we 
flunked the last couple of years. I am absolutely dedicated to 
seeing to it that, as my tenure goes forward, we do not flunk, 
that we pass with flying colors.
    Senator Shelby. Thank you.
    Senator Mikulski, you have any more questions?

               RETAINING AND ATTRACTING SKILLED WORKFORCE

    Senator Mikulski. Thank you.
    First of all, I want to associate myself with Senator 
Shelby's questions about fiscal accountability, fiscal 
responsibility and implementing the reforms in the GAO report.
    I also want to thank you in this testimony here for your 
candor about what you are facing. Actually, I think we are off 
to a good start even if some of the things are giving us 
heartburn, at least we feel that we are getting a candid 
conversation and look forward to more.
    I am going to raise an issue about workforce. You talked 
about the astronauts that will be on the trip to Mars are now 
in elementary school, and we also know that NASA has an aging 
workforce in certain projects, so you need to retain, you need 
to recruit, and there needs to be a development of our future 
scientists and technologists.
    Could you give us your view on two things, number one, the 
workforce at NASA and our ability to retain the qualified 
people that you need to complete the priorities that you 
outline and we support; and number two, what do you see NASA's 
role in really helping generate, cultivate, that next 
generation of scientists and technologists?
    Mr. Griffin. Well, Senator, this is a subject that, as I 
believe you know, I am quite passionate about.
    Senator Mikulski. I know you are.
    Mr. Griffin. I sometimes say, who is it that you will find 
who loves education more than I do? That said, two things. 
First of all, we have $167 million in the NASA Education 
Program and more in the mission directorates as we sit here 
today. I believe that we need to focus that education program, 
establish goals and metrics for it, and make it effective, but 
it is a substantial amount of money.
    In addition, I think it is time to recognize that NASA's 
biggest, most important, most lasting contribution to education 
for our future workforce is to do the kinds of things that 
excite young kids enough to want to be part of the space 
program and to get an education to do it. They can get almost 
any kind of an education and we will have a place for them at 
NASA. We are a very broad Agency. We need a lot of different 
specialties, but an education is a requirement.
    If we return to the Moon, if we set up a permanently manned 
lunar base there, if we go to Mars, if we visit the nearest 
asteroids, if we service the James Webb space telescope in 
future years, if we look beyond the Moon and Mars, young kids 
today and young kids of the future will want to be part of that 
program, as I did when I was a small boy, and they will do what 
is necessary with their education to get it.
    It is in that sense that NASA best served the educational 
community in my humble opinion.
    Senator Mikulski. On a personal note, you grew up in 
Maryland. You grew up in Aberdeen, close to a military base. It 
is the home of Cal Ripken.
    Mr. Griffin. Yes, Senator, I was born on a military base.
    Senator Mikulski. That is exactly right, and you went to 
our public schools. What was it that got you interested in--
what do you think--you have outlined those projects, but what 
got you interested?
    Mr. Griffin. This story is almost embarrassing to recount. 
I have not told it in public for some years, but it is true 
that--my mother was a teacher when I was a kid, and the first 
book that I was ever given was a book on astronomy and space. I 
have since commented that sometimes that based on what we know 
today, everything in that book was wrong.
    Senator Mikulski. Gee, and I started with ``The Three 
Bears.''
    Mr. Griffin. Well, we went down different tracks. I still 
have that book actually, and I was 5. This was in 1954, and I 
was absolutely fascinated by it, and from that time forward I 
never considered for myself anything other than being a 
scientist or engineer or mathematician and involving myself in 
the space business. And I never did. So that was what motivated 
me.
    I have no doubt--I hear often from--they are not kids any 
more--you know, men or women in their 30s whose early memories 
are the Apollo landings on the Moon, stimulated them into 
science, development of science and engineering. I hear from 
other young men and women who have technical educations that 
they were fascinated by Bob Ballard's discovery of the Titanic. 
Any sort of exploration into the unknown, any sort of discovery 
of the new and unknown excites our kids. And if you catch them 
at that age, they are with you forever.
    We all went through puberty. If you let kids get to middle 
school and high school before having fastened onto that 
interest, they are going to be interested in girls and 
football, or guys and football, whatever it is, but it is less 
likely to be science and engineering because science and 
engineering are hard.
    Senator Mikulski. They are hard. Well, first of all, I 
could not agree with you more that it is, number one, people 
interested in young people to expose it to them; number two, 
that it is wonderful projects that get people excited and young 
people knowing and hearing about them. And then also, I 
believe, that with that $167 million in NASA's education 
budget, that we really get perhaps more of a focus on where we 
would like to do it. Should it be in those areas like what we 
would call extra educational institutions like science centers 
and others? Today is not the day of doing that, but we want 
this year to be a success. But we want to be preeminent for the 
decade. We want to be preeminent for the century in science and 
exploration.
    So we look forward to working with you, and we would hope 
that all the work you do, you can start a treaty negotiation 
with NOAA and we will look forward to hearing about that. And I 
and the Hubble will be keeping an eye on you.
    Mr. Griffin. Senator, I will make sure that you do not have 
to keep a sharp eye. I will make sure that you know what we are 
doing with Hubble and with NOAA.
    Senator Mikulski. Thank you very much.
    Senator Shelby. Thank you, Senator Mikulski.

                     ADDITIONAL COMMITTEE QUESTIONS

    Dr. Griffin, I want to thank you for appearing here today 
before our subcommittee. I am sure you will be back many times. 
We will all be carrying on a dialogue with you. You have a lot 
of work cut out for you. I think you are up to the challenge. 
You bring the experience. You are candid, which is something we 
like, it is refreshing. We look forward to working with you. We 
have some hurdles to jump over, and you will be our leader in 
that regard.
    [The following questions were not asked at the hearing, but 
were submitted to the Administration for response subsequent to 
the hearing:]
            Questions Submitted by Senator Richard C. Shelby
    Question. The implementation plan for the Vision laid out in the 
fiscal year 2005 budget request was prepared based on underlying 
assumptions. How have these assumptions changed? What is the impact of 
any changed assumptions on NASA's funding needs?
    Answer. As communicated in its September 2005 Operating Plan 
Update, NASA has concluded the Exploration Systems Architecture Study 
(ESAS) to implement the Vision for Space Exploration. Based on ESAS 
recommendations, NASA has laid out a detailed plan to support sustained 
human and robotic lunar exploration operations. This plan features 
accelerated development of the Crew Exploration Vehicle (CEV) and Crew 
Launch Vehicle (CLV) systems for missions to the International Space 
Station, Moon, and Mars, and identifies key technologies required to 
enable this exploration architecture.
    ESAS results are broadly consistent with the assumptions on which 
the fiscal year 2005 budget request was based. However the specific 
architecture defined by the ESAS study allows NASA to accelerate CEV 
and CLV and to further focus and refine ESMD research and technology.
    To stay within planned budget guidance for Exploration Systems 
while accelerating CEV and these launch systems, it is necessary to 
redirect existing funding for longer-term and lower-priority research 
and technology (R&T) elements within the Exploration Systems Mission 
Directorate (ESMD), while focusing on those R&T activities that support 
the acceleration of the CEV, launch systems, and high-priority, long-
lead items.
    In the fiscal year 2006 budget amendment, $292 million was 
identified as moving from R&T activities into Constellation for CEV and 
CLV acceleration. Following the results of the ESAS, as described 
above, an additional $493 million is identified from the R&T activities 
for acceleration of CEV and CLV, as detailed below. This yields a total 
shift from R&T to Constellation for acceleration in fiscal year 2006 of 
$785 million, relative to original plans for fiscal year 2006.
    Constellation Systems.--NASA plans to accelerate the timeline for 
flight of the next human flight system by two years, from 2014 to a 
goal of not later than 2012. The first flights will be to the 
International Space Station (ISS), but the primary goal of the CEV is 
to support exploration efforts, including enabling humans to return to 
the Moon for weeklong stays as early as 2018, but no later than 2020. 
Longer-duration human presence on the Moon is targeted for 2022. The 
changes in the R&T programs will provide funds required to accelerate 
the design, development, and fabrication of the elements and systems 
needed to support a return to the Moon on the above timeline.
    Human System Research and Technology.--NASA is focusing HSRT 
funding on program elements that mature technologies needed to support 
ISS access and lunar sortie missions, while reducing program elements 
targeting longer-term or lower priority needs. As NASA concentrates the 
use of the Shuttle on ISS assembly, ISS utilization will be deferred.
    Exploration Systems Research and Technology.--NASA is realigning 
projects to support the ESAS recommended architecture requirements. 
This realignment has resulted in a focused and phased, requirements 
driven, R&T program in which some projects are curtailed, some are 
adjusted, and some are added. Ongoing projects are streamlined to 
deliver Technology Readiness Level 6 capabilities when needed (system 
preliminary design review) so as to enable the CEV, launch systems, and 
lunar lander development schedules. Examples of technology projects 
focused on the near-term include ablative thermal protection and 
oxygen-methane propulsion for CEV. Additional work is phased in after 
the first few years for lunar lander propulsion systems and nontoxic 
power and reaction control for launch vehicles. Finally, funding for 
technologies, such as in-situ resource utilization (ISRU) and those 
applicable to lunar surface systems, are phased in only during the out 
years. Discontinued, descoped or delayed technology projects include 
nanomaterials, inflatable structures, large-scale solar power, 
intelligent robotic systems, Mars mission specific technologies, and 
electric propulsion.
    Prometheus Research and Technology.--Program elements have been 
deferred as a result of the ESAS architecture study. Surface nuclear 
power systems to support potential long- duration stays on the Moon 
will not be required until after 2018. Nuclear propulsion will not be 
required until planning for Mars missions begins in earnest. The result 
will be a total reformulation in the nuclear program, yielding $76 
million in fiscal year 2006 to accelerate development of CEV and CLV. 
NASA's funding of the DOE's Naval Reactors program, the JIMO mission, 
and several technology research programs related to electric propulsion 
will be curtailed.
    Question. The fiscal year 2006 budget request contains less than 
half the percentage increase proposed by President Bush last year. [It 
was projected to increase by 4.7 percent above fiscal year 2005, but 
instead is 2.4 percent more when compared with what was appropriated in 
the fiscal year 2005 regular appropriations bill, or only 1.6 percent 
more if the $126 million provided by the emergency supplemental for 
hurricane relief are included.] How would the lower-than expected 
funding affect execution of the Vision?
    Answer. NASA is pleased to have received a 2.4 percent increase in 
the President's fiscal year 2006 budget request. This is about half the 
increase that was planned in the fiscal year 2005 budget runout, with 
the reduction representing NASA's contribution toward overall deficit 
reduction efforts--a priority for the President.
    In his State of the Union Address on February 2, 2005, the 
President underscored the need to restrain spending in order to sustain 
our economic prosperity. The fiscal year 2006 budget request includes 
more than 150 reductions, reforms, and terminations in non-defense 
discretionary programs, of which 3 affect NASA programs. Overall, 
NASA's budget is up, growing 2.4 percent in fiscal year 2006 and is 
projected to continue to climb thereafter at the approximate rate of 
inflation. This is a significant increase, when compared with other 
non-defense, non-homeland security funding, which is generally flat or 
declining.
    In comparison with last year's fiscal year 2005 budget projected 
runout, the fiscal year 2006 budget is about $546 million less. This 
reduction, contributing to overall deficit reduction, is spread among 
NASA's Exploration, Science and Aeronautics Mission Directorates, while 
enabling increased funds for Shuttle Return to Flight requirements. 
None of the reductions in Science and Aeronautics Programs is directed 
to Exploration Systems.
    With proposed fiscal year 2006 funding levels, NASA is capable of 
implementing the Vision for Space Exploration and other national 
priorities. It should be noted that, as a result of the President's 
fiscal year 2006 budget amendment and NASA's proposed adjustments in 
the fiscal year 2005 Operating Plan September update, NASA has 
identified realigned a total of $785 million within planned fiscal year 
2006 Exploration Systems funds from Research and Technology efforts to 
Constellation for acceleration of CEV and CLV relative to original 
fiscal year 2006 plans.
    Question. In your opinion, should NASA be a ``single-mission'' 
agency focused on implementing the President's Vision for Space 
Exploration, or a multi-mission agency as it has been in the past? If 
you intend to lead NASA as a multi-mission agency, to what extent is 
the budget you are requesting for fiscal year 2006-2010 sufficient to 
accomplish that objective?
    Answer. NASA is and should remain a multi-mission agency. Over the 
past year, NASA has made great strides in meeting national priorities 
in its missions not directly connected to milestones in the President's 
Vision for Space Exploration:
  --Earth Science.--We have completed deployment of the Earth Observing 
        System and are supporting investments in the Global Change 
        Science and Technology Program and the next generation Earth 
        observing satellites for numerous applications, including 
        improved weather forecasts, earthquake prediction, resource 
        management, and other hazard warnings.
  --Aeronautics.--We are re-establishing NASA's dedication to mastery 
        of core competencies in subsonic, supersonic and hypersonic 
        flight, along with aviation safety, and airspace systems. NASA, 
        with its industry partners, recently demonstrated the 
        feasibility of significantly reducing the sonic boom from 
        supersonic aircraft, and, last November, NASA's hypersonic X-
        43A demonstrated that an air-breathing engine can fly at nearly 
        10 times the speed of sound.
  --Exploring our Solar System and the Universe.--The Mars rovers, 
        Spirit and Opportunity, have exceeded all expectations and made 
        unprecedented discoveries that will help prepare for eventual 
        human exploration; the Cassini/Huygens mission is providing 
        stunning views of Saturn and Titan; the Genesis mission, 
        despite its hard landing, has returned primordial samples from 
        space; new missions have been launched to Mercury and to 
        comets; and amazing discoveries continue with Hubble, Chandra, 
        and Spitzer.
    NASA's fiscal year 2006 budget request provides a balanced 
portfolio of programs to meet the needs of our national priorities in 
space and aeronautics.
  --The fiscal year 2006 budget request of $5.5 billion for the Science 
        Mission Directorate will support 55 missions in orbit, 26 in 
        development and 34 in design phase. By 2010, the Science budget 
        will increase by 23 percent over current levels. NASA will 
        continue to expand its exploration reach with an armada of 
        existing and new space observatories operating in many 
        different wavelengths and looking at different parts of our 
        exotic universe. The three ``Great Observatories''--Hubble, 
        Spitzer, and Chandra--will continue to bring wondrous images to 
        our eyes and exciting new scientific discoveries. Missions such 
        as Kepler will provide a new understanding and knowledge of the 
        planets orbiting stars far from our solar system.
  --NASA's fiscal year 2006 request for the Aeronautics Research 
        Mission Directorate is $852 million, a significant portion of 
        the government's overall investment in aeronautics research. To 
        make the most of this investment, NASA's technical expertise 
        and facilities for aeronautics research are becoming more 
        focused and results-oriented. NASA's current aeronautics 
        research is focused on enhancing the public good. NASA is also 
        working to maintain a strong basic aeronautics research program 
        to ensure continued mastery of core competencies in subsonic, 
        supersonic, and hypersonic flight. The results from the basic 
        research, technology development, and demonstrations achieved 
        by NASA's Aeronautics efforts will be transitioned for use by 
        both Government and industry.
  --The President's fiscal year 2006 budget amendment, submitted July 
        15, 2005, continues to reinforce a balanced, multi-mission 
        proposal, allowing NASA to address national priorities in Space 
        Science, Earth Science, and Aeronautics, while maintaining 
        focus on the Vision for Space Exploration outlined by the 
        President in January 2005. The multiyear budget plan is 
        sufficient to accomplish this balanced portfolio. It should be 
        noted that the President's fiscal year 2006 budget amendment 
        accomplished several objectives within the request level, 
        including initial steps to accelerate development of the Crew 
        Exploration Vehicle (CEV) and Crew Launch Vehicle (CLV), while 
        preserving funding for Science and Aeronautics Programs. NASA's 
        fiscal year 2005 Operating Plan September update identifies 
        further reallocation within proposed fiscal year 2006 funding 
        levels for Exploration Systems to support these objectives. It 
        is important to note that NASA has not redirected funding from 
        Science and Aeronautics activities to support exploration 
        activities.
    Question. How important is meeting the milestones set out in the 
President's speech--2008 for a demonstration flight of the Crew 
Exploration Vehicle, 2008 for the first Vision-related robotic lunar 
probe, and 2015-2020 for a human return to the Moon? Is there 
flexibility in the dates so that other NASA activities do not 
necessarily have to be sacrificed in order to meet them? If there is 
flexibility in meeting those dates, is there also flexibility in the 
2010 date for retiring the shuttle?
    Answer. The President's fiscal year 2006 budget request, as 
amended, provides resources to enable NASA to implement the milestones 
established in the Vision for Space Exploration. These key milestones 
include the Shuttle Return-to-Flight, 2008 Lunar Robotic Orbiter, and 
accelerated development of the Crew Exploration Vehicle (CEV) and Crew 
Launch Vehicle (CLV), to return Americans to the Moon before 2020. NASA 
is not prepared to be flexible with respect to the major milestones 
established for the agency by the President.
    It is important to note that NASA has not redirected funding from 
Science and Aeronautics activities to support exploration activities, 
either in the fiscal year 2006 budget request as submitted in February 
2005, or in the President's fiscal year 2006 budget amendment, 
submitted to Congress on July 15, 2005. NASA has no plans to reduce 
funding for other NASA activities to support exploration goals.
    In accordance with the President's direction, NASA intends to fly 
out the Shuttle program in an orderly, safe, and disciplined fashion, 
with retirement not later than 2010.
    Question. Please clarify what your plans are for personnel cutbacks 
over the next year and a half. How many full time equivalents (FTEs) 
does NASA employ today, and how many will have to leave the agency, 
voluntarily or involuntarily, by the beginning of fiscal year 2007? 
What is the breakdown of those personnel cuts by center and by 
discipline?
    Answer. NASA's fiscal year 2005 actual FTE (Full Time Equivalents) 
including the NASA Inspector General's office, was 18,807. As of early 
October 2005, the current rate is 18,630.
    NASA is implementing the Vision for Space Exploration. In doing so, 
we are implementing an orderly retirement of the Space Shuttle by 2010, 
defining the architecture for space exploration, and accelerating the 
development of the new exploration vehicles and associated launch and 
support systems. We are continuing to work on the International Space 
Station, fulfilling our commitments to our partner countries. We are 
establishing an aeronautics program focused on technological advanced 
in cutting-edge areas of research and development. In addition, we are 
retaining a robust science portfolio.
    These activities require a balanced workforce skill mix and 
productive NASA Centers to complete the work over several years. We are 
in the process of developing plans to reshape our workforce and capital 
asset portfolio to ensure that we can meet our goals. In the short 
term, however, we have an imbalance of skills at the Centers because we 
have not yet fully matched up the new and revised work with the 
existing workforce.
    We have already taken several actions to reduce the uncovered 
capacity at the Centers, including two early retirement/buyout programs 
which resulted in approximately 650 employees retiring or resigning 
from the Agency. In addition, job fairs were held at NASA Centers, 
which resulted in 119 jobs offers and 95 placements. While these 
actions have helped reduce the extent of the problem, a significant 
imbalance still exists. As of early October 2005, the following 
uncovered capacity existed.

------------------------------------------------------------------------
                                                              Uncovered
                           Center                              Capacity
------------------------------------------------------------------------
ARC........................................................          246
GRC........................................................          268
LaRC.......................................................          181
MSFC.......................................................          226
                                                            ------------
      Total................................................          921
------------------------------------------------------------------------

    In August 2005, the senior leadership at NASA initiated an 
aggressive plan to reduce the uncovered capacity for fiscal year 2006 
and fiscal year 2007, with the ultimate goal of avoiding or minimizing 
the need for a Reduction in Force (RIF) in fiscal year 2007. Targets 
numbers were established for each NASA Center to either identify 
program work within their Center for their own uncovered personnel or 
identify work packages from existing or newly-assigned programs that 
other Centers can perform. The goal is to assign work equitably to 
maintain a reasonable balance among 10 healthy NASA Centers. A team of 
representatives from all NASA Centers and Mission Directorates are 
working together to identify the competencies available at the Centers 
and the work packages available for placement. Work packages will be 
transferred as soon as possible, with a goal of completing the action 
no later than June 2006. At that time, an assessment will be performed 
to determine the remaining uncovered capacity and the likelihood of 
NASA needing those competencies in the near future. For those 
competencies that will not be needed, RIF proceedings will be 
initiated, with a targeted implementation date in fiscal year 2007.
    By identifying required skills and working collaboratively to match 
those skills with funded work, NASA intends to retain the expertise 
we'll need to achieve the Vision for Space Exploration.
    Question. What is NASA's total estimated cost to develop and 
implement IFMP?
    Answer. Development and implementation of IFMP (now Integrated 
Enterprise Management Program) will be completed in fiscal year 2008. 
Investment through that time will be $662.6 million.

                              AERONAUTICS

    Question. NASA's requested budget for aeronautics in fiscal year 
2006 is $852 million, a reduction from $906 million this year. Further 
reductions are projected for fiscal year 2007. According to the 
program, this will mean the elimination of about 1,100 jobs at NASA 
centers. Since coming on board as NASA Administrator, have you 
reexamined these proposals? Do you anticipate modifying them at all?
    How does NASA reconcile the National Institute of Aerospace's call 
for increased funding with NASA's funding stream which can only be 
interpreted as de-emphasizing aeronautics research and development? To 
what extent is NASA using the NIA report in its planning for future 
aeronautics research investment?
    Answer. NASA is using the NIA report, along with the 
Congressionally directed Joint Program and Development Office report on 
the Next Generation Air Transportation System, the report of the 
Congressionally-chartered Commission on the Future of the U.S. 
Aerospace Industry, past reviews by the National Research Council, and 
the newly formed Decadal Survey of Civil Aeronautics, to contribute to 
identification of potential opportunities for additional research and 
establishment of priorities for aeronautics programs and projects. NASA 
agrees with the national needs and critical aviation technology sectors 
called out in the NIA report. We are beginning to address the 
technological needs listed in the NIA report by initiating a national 
dialogue within the Executive Branch and the Congress about the future 
of aeronautics research and the role of the Federal government in this 
research arena. In addition, H.R. 2862, the fiscal year 2006 Science, 
State, Justice, Commerce, and Related Agencies appropriations bill 
calls upon the President to develop a comprehensive, national 
aeronautics policy similar to the one we now have for space 
exploration. In a Statement of Administration Policy regarding H.R. 
2862, the Administration endorsed the Committee's call for the 
development of a national aeronautics policy. While the NIA report 
makes several significant and useful recommendations, the doubling of 
the aeronautics budget will not be possible to achieve within projected 
funding levels for NASA. Rather, NASA must ensure that our current 
investments in aeronautics research and technology are prioritized and 
effective.
    The Agency is addressing its workforce and institutional issues 
with two teams. The NASA Workforce Transition Review team is focusing 
on identification of additional work the Agency needs done in the near 
future that both contributes to the Agency's mission agenda and which 
could be directly assigned to NASA Centers. The Systems Engineering and 
Institutional Transitions Team (SEITT) is conducting a long-term study 
focused on the institutional requirements needed to ensure the Agency's 
goals are met with minimum cost, maximum reliability, and measurable 
high performance. NASA is attempting to identify additional activities 
from other Agency programs, such as Exploration Systems, to assign to 
Agency Research Centers, but it remains unclear whether this will 
totally resolve projected ``uncovered capacity'' within the Agency 
workforce by the end of fiscal year 2006.
    As NASA Administrator, I am working to the best of my abilities to 
resolve these workforce issues, and I will continue to work with the 
Congress to resolve them.

                                SCIENCE

    Question. Funding constraints are forcing difficult choices in 
NASA's Science programs. What process or processes, and criteria, do 
you use to prioritize among your space and earth science programs that 
are in planning or development? For example, the National Research 
Council prepares decadal strategies that prioritize within particular 
disciplines (planetary exploration, astrophysics, etc.), but what 
mechanism and criteria does NASA use to prioritize across disciplines? 
Similarly, how do you determine which existing probes--such as 
Voyager--should be turned off because they are past their design 
lifetimes, even though they continue to return useful data? What is the 
status of your decision-making on whether or not to turn off Voyager?
    Answer. NASA works to maintain a balanced portfolio of investment 
over time among the several disciplines in the Earth and Space 
Sciences. We start from the baseline of existing programs and most 
recent strategic plans, and update them based on recent progress, 
Presidential initiatives, and science community advice. As you point 
out, the NRC decadal surveys are very useful in prioritizing within 
major disciplines. In any given period, choices among programs in 
different disciplines can be driven by recent scientific discovery, 
technology readiness, or partnership opportunities that can leverage 
NASA's investment. A chief factor is ``science value''--the anticipated 
scientific return per dollar investment--though that is not always 
readily estimable. Over the longer term, portfolio balance is 
maintained as we listen to our stakeholders in the science community 
and the Executive and Legislative branches of government.
    Regarding extension or termination of existing probes and 
satellites that have fulfilled their prime missions, NASA also relies 
heavily on science value as determined by independent scientific peer 
review. Those nearing or beyond their prime mission (the period of 
operation proposed when selected) are subjected to a Senior Review 
Process. In this process, mission science teams are required to submit 
a proposal describing what science they propose to accomplish via 
continued operation, and at what cost. An independent panel of external 
scientists reviews, evaluates, and scores the proposals on their 
merits. NASA uses this ranking in deciding which missions to operate 
and for how long, given the funds available.
    There are currently 12 operating missions funded within the Earth-
Sun System division of NASA's Science Mission Directorate that have 
fulfilled their primary mission and are in the extended mission phase, 
including Voyager 1 and 2. Additional funding is identified in the 
President's fiscal year 2006 budget amendment to maintain continued 
operation of the fleet of spacecraft conducting space and solar physics 
missions pending decisions on scientific priorities to be made once 
NASA receives input from both the Sun-Earth Connection and Earth System 
Science Senior Review Panels. These Panels, composed of external and 
independent senior researchers with relevant knowledge and experience, 
meet periodically to review proposals for innovative research, 
accomplished with existing space assets. NASA will permit the Sun-Earth 
Connection missions to operate while the Senior Review process provides 
for a new assessment of the future scientific value of these operating 
missions. At the conclusion of the Panels' deliberations, NASA will use 
their assessment and findings to develop Agency decisions regarding the 
continued operation of these missions.
    Question. The National Research Council recently issued an interim 
report on NASA's Earth Science program, saying that it is ``at risk,'' 
citing reduced funding levels for Earth Science projects following the 
announcement of the Vision for Space Exploration. What is your reaction 
to that report?
    Answer. While funding for Earth science declined in the fiscal year 
2005 budget request, the Earth science budget was largely protected 
from further reduction in the fiscal year 2006 request. The President's 
fiscal year 2006 budget amendment reallocates funding within the 
Science Mission Directorate to focus resources on near-term 
requirements while deferring investments in longer-term activities. 
Specifically, the Earth-Sun Theme is increased by $88.3 million to 
fully fund a standalone Glory mission, provide additional funding for 
extending the missions of currently operating satellites, and maintain 
the launch schedule for the Solar Dynamics Observatory. To the extent 
possible, we will address some concerns raised in their interim report 
in the fiscal year 2007 budget process. We look forward to receiving 
the NRC's decadal survey report for Earth science (expected around the 
end of next year), which will help guide NASA's future investments in 
Earth science and observation.
    Question. The fiscal year 2006 budget request and its projections 
through 2010 assume a cut of about $1 billion to programs within the 
new Science Mission Directorate compared with the fiscal year 2005 
budget projections. How much of that $1 billion cut was taken from 
programs previously under the former Office of Space Science versus 
those in the former Office of Earth Science?
    Answer. Given past budget reductions to former Office of Earth 
Science programs, the Science Mission Directorate protected these 
programs from further reductions in the fiscal year 2006 budget 
request. As a result, the vast majority of reductions contained within 
the fiscal year 2006 budget request for the Science Mission Directorate 
came from planned growth in programs previously part of the Office of 
Space Science. Of the reductions in the Earth-Sun System Theme, only 
the Earth System Science Pathfinder (ESSP) program and Glory reductions 
affected programs from the former Earth Science Enterprise. It is 
important to note that the reduction to ESSP was used to offset a 
budget increase for the Hydros mission. The fiscal year 2006 budget 
request has since been amended to increase funding for the Earth-Sun 
System Theme by $88.3 million to fully fund a standalone Glory mission, 
provide additional funding for extending the missions of currently 
operating satellites, and maintain the launch schedule for the Solar 
Dynamics Observatory. All reductions in the fiscal year 2006 budget 
amendment in the Solar System Exploration and Universe division budgets 
were taken from former Office of Space Science programs.
    Question. What is the status of planning to send a probe to further 
study Jupiter's moon Europa? NASA proposed a Europa mission in fiscal 
year 2002, but replaced it a year later with the Jupiter Icy Moons 
Orbiter (JIMO). Now JIMO has been indefinitely deferred. Does the 
planetary science community still have a Europa mission at the top of 
its list for the next large-class planetary mission? If so, when do you 
expect to launch such a probe?
    Answer. The 2003 National Research Council decadal survey report 
entitled, ``New Frontiers in Solar System Exploration: An Integrated 
Exploration Strategy,'' identified a Europa mission as the top priority 
flagship-class mission (those missions costing $650 million or more). 
NASA recognizes the priority the scientific community places on the 
science returned from the Europa mission. Therefore, we are continuing 
to examine the technological challenges and our mission options for 
such a probe.
    Question. You have stated that once the shuttle returns safely to 
flight, you will reexamine the option of a shuttle mission to service 
the Hubble space telescope. What has changed since your predecessor's 
decision that safety considerations preclude using the shuttle to 
service Hubble?
    Answer. Based on analysis of the relative risks immediately 
following the loss of Columbia, NASA decided not to proceed with a 
Shuttle servicing mission. NASA's decision not to service the Hubble 
was a very difficult one, given the Hubble's record of spectacular 
successes. That decision was made at a time when significant 
uncertainty remained, regarding the technical solutions and risks 
associated with return to flight. After the two successful Space 
shuttle flights needed to achieve our return to flight objectives, NASA 
will have learned a great deal more regarding the risks and operations 
of the vehicle than was known when the previous decision was made. The 
Administrator has committed to reassess the earlier decision, after 
return to flight, based on the relative risks to the Space Shuttle as 
well as our efforts to preserve the option for a Shuttle servicing 
mission for Hubble in advance of that decision. He has further 
indicated that he will make a decision regarding a Shuttle servicing 
mission for Hubble following the second successful Return to Flight 
mission. In the interim, the Agency has funded the option for a Hubble 
servicing mission in the fiscal year 2005 Operating Plan at $291 
million. In addition, $30 million has been included in the President's 
fiscal year 2006 budget amendment to continue to preserve the option 
for a Hubble servicing mission, pending the second return to flight 
mission of the Space Shuttle. NASA will keep the Committee informed of 
our efforts and conclusions in this regard.
    Question. Is the option of servicing Hubble robotically now 
completely off the table? What is the last date at which a decision 
could be made to service Hubble robotically? What have we learned from 
the work that was done on this option?
    Answer. Based on analysis of the relative risks immediately 
following the loss of Columbia, NASA decided not to proceed with a 
Shuttle servicing mission (the previously planned Servicing Mission 4, 
or SM-4). That decision was made at a time when significant uncertainty 
remained regarding the technical solutions and risks with Return to 
Flight. In response to Congressional direction, NASA tasked the 
National Academy of Sciences (NAS) to examine all reasonable options 
for extending the lifetime of the HST. The NAS concluded that it was 
``highly unlikely that NASA will be able to extend the science life of 
[Hubble] through robotic servicing,'' and recommended that ``[a] 
robotic mission approach should be pursued only to de-orbit Hubble.'' 
Consistent with the conclusions of the NAS study, NASA discontinued the 
robotic servicing effort this past spring.
    In the future, however, robotic concepts for an eventual de-orbit 
mission for HST may be considered, and, in the meantime, much of the 
work done for the robotic servicing concept is being used in developing 
new capabilities needed for the Exploration Vision as well as other 
advanced robotics concepts. The Agency believes that an aggressive use 
of robotics in the Exploration Vision is required to execute many of 
the elements of that program.
    Question. If NASA proceeds with a Hubble servicing mission, and it 
is successful, how much longer will Hubble operate? What will be the 
annual operating costs for extending Hubble's lifetime? What impact 
will these additional costs have on other NASA astronomy programs? At 
the end of Hubble's extended lifetime, should we anticipate calls for 
yet another extension?
    Answer. The expected (design) life of the equipment planned for the 
potential SM-4 is 5 years. That said the design of the HST and its 
hardware is robust and redundant. The Agency has not done an extensive 
analysis of the potential lifetime of the HST after servicing, but the 
prime mechanism for the end of science is loss of the fine pointing 
gyroscopes. With new batteries, gyros, and science instruments 
installed on SM-4, and the improved operational concepts developed as 
part of the ongoing life extension program, it is reasonable to expect 
that the system as a whole will be producing quality science for up to 
7 years after servicing.
    The cost of operations of the HST after servicing depends on 
several variables, including the amount of overlap with other programs 
using the Space Telescope Science Institute (STScI) and the outcome of 
negotiations with the contracted management organization. It is 
expected that it will cost less to operate the HST in the future if 
there are no subsequent servicing missions.
    Existing operational missions should not be impacted by additional 
years of operations of the HST. At present, we have budgeted sufficient 
funds to operate the telescope until the end of our present budget 
cycle. The greatest impact to Space Science has been and continues to 
be the additional costs driven by the delay in SM-4 due to the Shuttle 
accident and NASA's goal to demonstrate two successful Shuttle Return 
to Flight missions before proceeding with a Hubble servicing mission.
    After SM-4, any future required servicing, if desired, to further 
extend the life of HST, would be after the retirement of the Shuttle 
fleet.

                              EXPLORATION

    Question. The fiscal year 2006 budget request indicates that NASA 
plans to spend through fiscal year 2010 over $10 billion on the Earth 
Orbit Capability (Spiral 1) program to develop, demonstrate and deploy 
the capability to safely transport a crew to and from earth orbit, by 
2014, in preparation for future missions to the moon. The five-year 
forecast in your fiscal year 2006 request shows steep increases in 
anticipated funding needs for the Spiral 1 program in fiscal years 2009 
and 2010. What is a reasonable timeframe in which we could expect you 
to share the total cost of the Spiral 1 program and future Spirals with 
the Congress?
    Answer. Exploration Systems is no longer using the term ``Spiral'' 
to categorize its development process. The initial capability developed 
by the Constellation Program will be transportation of crew and 
supplies to the International Space Station in low-Earth orbit.
    As part of its Exploration Systems Architecture Study, the Agency 
has completed preliminary cost estimates for the new Exploration 
architecture. NASA has briefed Committee staff on these estimates and 
the methodology followed to arrive at them.
    Question. You said last year that the issue wasn't whether there 
was enough money allocated to the Vision, but ``why we are expecting so 
little for the money which has been allocated?'' How, specifically, 
will you get more ``bang for the buck'' as you execute the Vision?
    Answer. In order to provide the maximum return for the taxpayer's 
investment, NASA must make priority decisions within the exploration 
program by focusing on those activities that are best able to produce 
significant results, and by ensuring that individual programs 
complement each other.
    In September, NASA promulgated an integrated exploration 
architecture derived from the Vision for Space Exploration that 
specifies the capabilities necessary for future exploration activities. 
Based on that architecture, clear priorities have been established to 
focus NASA efforts on those development activities designed to provide 
the greatest return to the taxpayer. Teams have been established to 
assess how to best utilize our resources and workforce to ensure that 
we get the most ``bang for the buck.'' Funds have already been 
redirected from projects that do not need immediate funding (such as 
Project Prometheus) towards those that do (e.g., the CEV). Additional 
cost savings and efficiencies will be realized through a careful, 
focused transition between Shuttle infrastructure and new exploration 
capabilities. These new capabilities will create new opportunities for 
exploration, discovery and understanding.
    Question. NASA has announced that it will accelerate its plans for 
the Crew Exploration Vehicle. Given this maiden flight was not to have 
occurred until 2014, where do you anticipate the associated funding 
will come from and which NASA programs will be impacted as the result 
of advancing the development of the CEV? What steps would you take to 
ensure that accelerating the program would not lead to excessive cost 
growth and/or technical risk?
    Answer. The capability to accelerate the development of the CEV 
will be driven by development schedules, test schedules, safety 
considerations, and funding. These were areas of interest for the 
Exploration Systems Architecture Study (ESAS).
    To stay within planned budget guidance for Exploration Systems 
while accelerating CEV and these launch systems, it is necessary to 
redirect existing funding for longer-term and lower-priority research 
and technology (R&T) elements within the Exploration Systems Mission 
Directorate (ESMD), while focusing on those R&T activities that support 
the acceleration of the CEV, launch systems, and high-priority, long-
lead items.
    In the fiscal year 2006 budget amendment, $292 million was 
identified as moving from R&T activities into Constellation for CEV and 
CLV acceleration.
    Constellation Systems.--NASA plans to accelerate the timeline for 
flight of the next human flight system by two years, from 2014 to a 
goal of not later than 2012. The first flights will be to the 
International Space Station (ISS), but the primary goal of the CEV is 
to support exploration efforts, including enabling humans to return to 
the Moon for week-long stays as early as 2018, but no later than 2020. 
Longer-duration human presence on the Moon is targeted for 2022. The 
changes in the R&T programs will provide funds required to accelerate 
the design, development, and fabrication of the elements and systems 
needed to support a return to the Moon on the above timeline.
    Human System Research and Technology.--NASA is focusing HSRT 
funding on program elements that mature technologies needed to support 
ISS access and lunar sortie missions, while reducing program elements 
targeting longer-term or lower priority needs. As NASA concentrates the 
use of the Shuttle on ISS assembly, ISS utilization will be deferred.
    Exploration Systems Research and Technology.--NASA is realigning 
projects to support the ESAS recommended architecture requirements. 
This realignment has resulted in a focused and phased, requirements 
driven, R&T program in which some projects are curtailed, some are 
adjusted, and some are added. Ongoing projects are streamlined to 
deliver Technology Readiness Level 6 capabilities when needed (system 
preliminary design review) so as to enable the CEV, launch systems, and 
lunar lander development schedules. Examples of technology projects 
focused on the near-term include ablative thermal protection and 
oxygen-methane propulsion for CEV. Additional work is phased in after 
the first few years for lunar lander propulsion systems and non-toxic 
power and reaction control for launch vehicles. Finally, funding for 
technologies, such as in situ resource utilization (ISRU) and those 
applicable to lunar surface systems, are phased in only during the out 
years. Discontinued, descoped or delayed technology projects include 
nanomaterials, inflatable structures, large-scale solar power, 
intelligent robotic systems, Mars mission specific technologies, and 
electric propulsion. Transitional action is being taken in fiscal year 
2005 to discontinue plans for 80 tasks and activities, previously 
planned at $206 million in fiscal year 2006, which do not directly 
support ESAS architecture or schedule requirements. These actions will 
yield $174 million in fiscal year 2006 that will be applied towards 
accelerated development of CEV and CLV.
    Prometheus Research and Technology.--Program elements have been 
deferred as a result of the ESAS architecture study. Surface nuclear 
power systems to support potential long-duration stays on the Moon will 
not be required until after 2018. Nuclear propulsion will not be 
required until planning for Mars missions begins in earnest. The result 
will be a total reformulation in the nuclear program, yielding $76 
million in fiscal year 2006 to accelerate development of CEV and CLV. 
NASA's funding of the DOE's Naval Reactors program, the JIMO mission, 
and several technology research programs related to electric propulsion 
will be curtailed.
    Further, in order to reduce cost and technical risks, ESMD and 
Constellation Systems are currently investigating innovative approaches 
to software development, early incorporation of operational expertise 
into the program, a lean program and theme office, and a robust 
oversight role for the theme and program.
    Question. Generally speaking, do you anticipate that the decision 
to merge the EELV programs will save money for the government, and 
specifically for NASA? If so, how will it save money, and how much?
    Answer. The Department of Defense is in the best position to 
evaluate impacts to EELV due to changes in the program structure. 
Nonetheless, NASA is an important customer for EELV and we are very 
interested in potential efficiencies that could reduce our costs over 
the long run.
    We have been following the initiative to consolidate elements of 
the individual EELV programs into common, integrated activities under 
the proposed ``United Launch Alliance (ULA).'' We understand that this 
initiative could drive economies of scale and allow us to reduce the 
individual ``standing armies'' that contribute to fixed costs for each 
of the EELV programs. This approach holds some potential for 
significant cost savings and we look forward to benefiting from them if 
and when they occur. However, we have not evaluated the ULA proposals 
in enough detail to quantify any potential cost savings.
    Question. Considering the large amount of information that we have 
from the Apollo program, and the number of lunar probes being launched 
by other countries, why does NASA plan to launch lunar probes of its 
own prior to a human return to the Moon? Please explain what these 
probes will be doing that is crucial to accomplishing the President's 
goal. What is the status of planning for these lunar probes?
    Answer. NASA intends to launch lunar probes--including orbiters and 
lenders--in order to prepare for extended human presence on the Moon. 
As a synergistic benefit, NASA also expects to contribute to the 
advancement of scientific knowledge of the Moon, which in turn will 
advance our understanding of our own planet's evolution.
    As noted in the question, other countries are also launching probes 
to the Moon. NASA expects to take full advantage of the knowledge 
gained from those probes. However, there are more questions NASA must 
answer to meet the lofty goals of the Vision for Space Exploration. 
NASA probes will focus on filling gaps in knowledge needed to ensure 
the safety of future human missions to the Moon. They will address 
specific questions related to human exploration of the Moon, and 
demonstrate key technologies required for future human missions. The 
programs are designed to avoid unnecessary redundancy and take full 
advantage of the results from other probes.
    For example, NASA is planning a Lunar Reconnaissance Orbiter (LRO) 
launch in 2008, which will provide a much higher fidelity map of a 
larger portion of the lunar surface, especially the poles, than is 
offered by any other probe. Such a map is critical for selecting future 
sites for human landing. LRO instruments will also provide information 
to help NASA protect our astronauts from the Moon's radiation 
environment and to identify likely sources of water.
    Shortly after the LRO mission, NASA plans to send a lander to the 
Moon. This lander will help demonstrate precision navigation techniques 
that will be important for positioning humans on the exact lunar 
landing site of choice. It will conduct a more detailed survey of a 
potential human landing site and confirm the existence and composition 
of resources that can support an extended human presence. Eventually, 
lenders may demonstrate capabilities needed for extended human 
presence, such as the ability to convert lunar water into hydrogen and 
oxygen for life support and propulsion.
    In summary, NASA's lunar probes are intended to meet the needs of 
the Vision for Space Exploration. Other probes complement planned NASA 
lunar probes. We design our probes to provide additional knowledge 
critical to ensuring future successful human missions to the lunar 
surface.

 SPACE OPERATIONS: THE INTERNATIONAL SPACE STATION (ISS) AND THE SPACE 
                                SHUTTLE

    Question. What is your current cost estimate for returning the 
space shuttle to flight status--for fiscal year 2005 and fiscal year 
2006, specifically, and the total cost (fiscal year 2003-2009)?
    Answer. NASA's estimate for Space Shuttle Return to Flight (RTF) 
costs from fiscal year 2003 through the end of fiscal year 2006 is just 
over $1.4 billion. Overall, Return to Flight costs are stabilizing as 
technical solutions have reached maturity and implementation of 
solutions nears completion. The estimates provided in the latest 
Implementation Plan for Space Shuttle Return to Flight and Beyond, 
dated June 3, 2005 (attached), remain valid and have not substantially 
changed since November 2004. Management tools are in use to monitor 
progress and provide early warning of potential problems. However, the 
potential exists for additional content that may be required in the 
post-Return to Flight time frame depending on the ongoing work 
addressing issues seen during STS-114 and the results of the Shuttle's 
performance on the second Return to Flight mission, STS-121.
    Current estimates for RTF costs are: Fiscal year 2003--$42 million; 
fiscal year 2004--$496 million; fiscal year 2005--$602 million; and 
fiscal year 2006--$288 million.
    If there are any increases in Return to Flight costs, NASA is 
committed to accommodating them within its total budget request.
    Actual costs to date are tracking very closely with the November 
2004 estimate provided to Congress. The total estimated cost for 
returning the Shuttle to flight status through fiscal year 2009 is 
approximately $1.98 billion. The outwear costs are associated with 
added manpower for Systems Engineering. NASA's plan and our budget 
reflect the end of RTF after the second RTF mission and subsequent 
post-flight assessment actions. These milestones will take the Agency 
through most of fiscal year 2006. RTF, from a budget perspective, will 
end in fiscal year 2006, and will no longer be tracked as a separate 
effort, beginning in fiscal year 2007.

   Implementation Plan for Space Shuttle Return to Flight and Beyond

                     RETURN TO FLIGHT COST SUMMARY

    Proposed Program solutions for all return to flight (RTF) actions 
are reviewed by the Space Shuttle Program Requirements Control Board 
(PRCB) before receiving final NASA implementation approval. The PRCB 
has responsibility to direct studies of identified problems, formulate 
alternative solutions, select the best solution, and develop overall 
cost estimates. The membership of the PRCB includes the Space Shuttle 
Program Manager, Deputy Manager, all Project and Element Managers, 
Safety and Mission Assurance personnel, and Management Integration and 
Planning Office. This process applies to solutions to the Columbia 
Accident Investigation Board (CAIB) recommendations as well as to the 
Space Shuttle Program (SSP) corrective actions.
    In the process of down-selecting to two or three ``best options,'' 
the projects and elements approve funding to conduct tests, perform 
analysis, develop prototype hardware and flight techniques, and/or 
obtain contractor technical expertise that is outside the scope of 
existing contracts.
    The Space Flight Leadership Council (SFLC) is regularly briefed on 
the overall activities and progress associated with RTF and becomes 
directly involved when the SSP is ready to recommend a comprehensive 
solution to a CAIB recommendation or an SSP corrective action. The SFLC 
receives a technical discussion of the solution as well as an 
assessment of cost and schedule. With the concurrence of the SFLC, the 
SSP then receives the authority to proceed. The membership of the SFLC 
includes the Associate Administrator for the Office of Space 
Operations, Associate Deputy Administrator for Technical Programs, 
Deputy Associate Administrator for ISS [International Space Station] 
and SSP, Associate Administrator for Safety and Mission Assurance, 
Space Shuttle Program Manager, and the Office of Space Operations 
Center Directors (at Johnson Space Center, Kennedy Space Center, 
Marshall Space Flight Center, and Stennis Space Center).
    All recommended solutions are further reviewed, for both technical 
merit and to determine whether the solution responds to the action, by 
the Return to Flight Task Group (also known as the Stafford-Covey Task 
Group).
    Processes established by NASA to estimate and capture all costs 
related to RTF have steadily improved the accuracy of Agency budget 
forecasts. As the technical plan for RTF has matured, so the cost 
estimates have matured. NASA incurred costs in fiscal year 2003, valued 
at $42 million, to initiate RTF actions based on preliminary CAIB 
recommendations. Since November 2003, additional corrective actions 
have been initiated, in accordance with the process described above and 
based on the final CAIB Report recommendations and internal SSP 
actions.
    During fiscal year 2004, RTF activities moved rapidly from planning 
to execution, with several key option ``downselect'' decisions being 
made by the end of the year. The July 2004 RTF cost estimate is 
considered the first credible Agency projection because it was based on 
a more mature technical plan. NASA estimated that RTF activities in 
fiscal year 2004 would cost about $465 million. By the end of the year, 
the actual costs totaled $496 million. The costs incurred included work 
carried over from fiscal year 2003 as well as late-year changes in 
fiscal year 2004 technical content.
    The value of RTF activities for fiscal year 2005 is estimated at 
$602 million, of which $413 million have been approved through the 
PRCB. Of the remaining $189 million, $73 million represent the 
estimated value of work review by the control board, but with 
additional technical effort required before a directive is released, 
and $116 million is the value of activities that are still in technical 
definition. As NASA gains actual flight experience, the estimates for 
fiscal year 2005 and fiscal year 2006 will be adjusted and the changes 
will be reported to Congress as soon as they are fully assessed.
    Fiscal year 2006 is planned to be a transition year for the Shuttle 
Program. RTF technical content that must be sustained for the Program's 
remaining service life, along with the workforce required to continue 
safe flight, will be absorbed into the Program's baseline. Therefore, 
at the end of fiscal year 2006, RTF costs will no longer be budgeted or 
reported separately.
    Excluded from the cost estimates provided below are other RTF-
related funding requirements resulting from a complete evaluation of 
Columbia accident impacts across the Program, such as replacement of 
hardware (e.g., cargo integration, Orbiter pressure tanks). Several 
solutions to improve NASA's culture and some of the Program's actions 
detailed in ``Raising the Bar--Other Corrective Actions'' are 
integrated into existing processes and do not always require additional 
funding.

                                                               TABLE 1.--RETURN TO FLIGHT BUDGET ESTIMATES/IMPLEMENTATION PLAN MAP FOR NEW ESTIMATES INCLUDING THREATS \1\
                                                                                                          [Dollars in millions]
----------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                       Fiscal year--                                                               Recommendation Numbers Map to Implementation Plan
                                             -------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                                                                CAIB #
                                               2003    2004    2005    2006  --------------------------------------------------------------------------------------------------------------------------------------------       SSP
                                                                              3.2-1  3.3-1  3.3-2  3.3-3  3.3-4  3.3-5  3.4-1  3.4-2  3.4-3  3.8-1  4.2-1  4.2-2  4.2-3  6.2-1  6.4-1  7.5-1  7.5-2  7.5-3  9.1-1  9.2-1  Recommendation
----------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
  ( \2\ Total Initiated SSP RTF Activities      42     496     602     288  .....  .....  .....  .....  .....  .....  .....  .....  .....  .....  .....  .....  .....  .....  .....  .....  .....  .....  .....  .....  ..............
    RE/RP   Orbiter RCC Inspections and     ......      39      41       5  .....     X      X   .....  .....  .....  .....  .....  .....     X   .....  .....  .....  .....     X   .....  .....  .....  .....  .....  ..............
             Orbiter RCC-2 Shipsets Spares
    RE/RP   On-orbit TPS Inspection and         20      71     167      49  .....  .....  .....  .....  .....  .....  .....     X   .....  .....  .....  .....  .....  .....     X   .....  .....  .....  .....  .....           X
             EVA Tile Repair
            Orbiter Workforce               ......  ......      38      46  .....  .....  .....  .....  .....  .....  .....  .....  .....  .....  .....  .....  .....     X   .....  .....  .....     X   .....  .....           X
    RE/RP   Orbiter TPS Hardening           ......      29       1  ......  .....  .....     X   .....  .....  .....  .....  .....  .....  .....  .....  .....  .....  .....  .....  .....  .....  .....  .....  .....  ..............
            Orbiter/GFE                     ......       8       4  ......  .....  .....  .....  .....  .....  .....  .....  .....  .....  .....  .....  .....  .....  .....  .....  .....  .....  .....  .....  .....  ..............
       RE   Orbiter Contingency             ......       8       4  ......  .....  .....  .....  .....  .....  .....  .....  .....  .....  .....  .....  .....  .....  .....  .....  .....  .....  .....  .....  .....  ..............
    RE/RP   Orbiter Certification/          ......      47       9  ......  .....     X   .....     X      X   .....  .....  .....  .....  .....  .....     X   .....     X   .....  .....  .....  .....  .....     X            X
             Verification
    RE/RP   External Tank Items (Camera,        10      93      88      14     X   .....  .....  .....  .....  .....  .....  .....     X   .....  .....  .....     X   .....  .....  .....  .....  .....  .....  .....  ..............
             Bipod Ramp, etc.)
    RE/RP   SRB Items (Bolt Catcher, ETA         1      14       4  ......  .....  .....  .....  .....     X   .....  .....  .....     X   .....     X   .....  .....  .....  .....  .....  .....  .....  .....  .....           X
             Ring Invest., Camera)
    RE/RP   Ground Camera Ascent Imagery         8      40      13      11  .....  .....  .....  .....  .....  .....     X   .....  .....  .....  .....     X      X   .....     X   .....  .....  .....  .....  .....  ..............
             Upgrade
            KSC Ground Operations           ......      15      38      42  .....  .....  .....  .....  .....     X   .....  .....  .....  .....  .....     X      X   .....     X   .....  .....  .....  .....  .....           X
             Workforce
 RE/RP/AC   Other (System Intgr. JBOSC           4     132     178     121  .....     X      X      X      X   .....  .....  .....  .....  .....  .....  .....  .....  .....  .....     X      X      X      X   .....           X
             Sys. Full Cost, Additional
             FTEs, etc.)
    RE/RP   Stafford-Covey Team             ( \3\    \4\ 1   \5\ 4  ( \6\   .....  .....  .....  .....  .....  .....  .....  .....  .....  .....  .....  .....  .....  .....  .....  .....  .....  .....  .....  .....           X
                                                 )                       )
                                           =============================================================================================================================================================================================
        Other RTF Related: NASA             ......      45      77      79  .....  .....  .....  .....  .....  .....  .....  .....  .....  .....  .....  .....  .....  .....  .....  .....     X      X      X   .....  ..............
         Engineering and Safety Center
         (NESC) \7\
----------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
        RE = Reestimated Item; RP = Rephased; AC = Added Content.

        \1\ These estimates could change due to improved estimates, additional tasks, and added scope as we better understand the implementation of RTF recommendations.
        \2\ This update includes added scope of work and improved estimates. RTF costs are stabilizing as technical solutions reach maturity. The Congress will be kept informed as we refine these requirements and associated cost
          estimates.
        \3\ NASA assumed an estimate of $94 million in budget authority for fiscal year 2003 of which $52 million of fiscal year 2003 planned work and associated cost were carried into fiscal year 2004.
        \4\ The fiscal year 2004 RTF cost estimate of $496 million includes $423 million of activities that have been approved for implementation. The remaining $73 million of RTF activities are pending approval. As soon as these
          additional activities are definitized, they will be shared with Congress.
        \5\ The fiscal year 2005 RTF cost estimate of $602 million includes $413 million of activities that have been approved for implementation. Of the remaining $189 million potential, $73 million is in work and $116 million of
          activities are in technical definition. As soon as these additional activities are definitized, they will be shared with Congress.
        \6\ The fiscal year 2006 RTF cost estimate of $288 million includes $188 million of activities that have been approved for implementation. Of the remaining $100 million potential activities, $26 million is in work and $74
          million of activities are in technical definition. As soon as these additional activities are definitized, they will be shared with Congress.
        \7\ The NASA Engineering and Safety Center (NESC) is funded through NASA's Corporate G&A. The NESC at NASA's Langley Research Center in Hampton, VA, provides comprehensive examination of all NASA programs and projects. The
          Center thus provides a central location to coordinate and conduct robust engineering and safety assessment across the entire Agency.

               Chart 1.--February 2005 RTC/CAIB Estimates
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


------------------------------------------------------------------------
                                             Fiscal year--
                             -------------------------------------------
                                 2003       2004       2005       2006
------------------------------------------------------------------------
Estimates Published in July          42        465        643        331
 2004.......................
                             ===========================================
Value of Control Board               42        423        413        188
 Directives Issues..........
Estimates for Control Board   .........         73         73         26
 Actions Work...............
Estimates for Activities      .........  .........        116         74
 Still in Technical
 Definition.................
                             -------------------------------------------
      Total Board Actions/           42        496        602        288
       Pending Board Actions
------------------------------------------------------------------------


                   TABLE 2.--FEBRUARY 2005 RTF STATUS
------------------------------------------------------------------------
                                             Fiscal year--
                             -------------------------------------------
                                 2003       2004       2005       2006
------------------------------------------------------------------------
RTF Activities--Control              42        423        413        188
 Board Directive............
RTF Activities--Been to       .........         73         73         26
 Control Board/Awaiting.....
RTF Activities--In Review     .........  .........        116         74
 Process....................
                             -------------------------------------------
      TOTAL RTF.............         42        496        602        288
                             ===========================================
RTF Activities--Control
 Board Directive:
    Orbiter RCC Inspections   .........         39         22  .........
     & Orbiter RCC-2
     Shipsets Spares........
    On-Orbit TPS Inspection          20         71        151         20
     & EVA Tile Repair......
    Orbiter Workforce.......  .........  .........         33         41
    Orbiter Hardening.......  .........         29          1  .........
    Orbiter/GFE.............  .........          7          4  .........
    Orbiter Contingency.....  .........          8         12  .........
    Orbiter Certification/    .........         47  .........  .........
     Verification...........
    External Tank Items              10         42         25          2
     (Camera, Bipod Ramp,
     etc.)..................
    SRB Items (Bolt Catcher,          1         14          4  .........
     Camera)................
    Ground Camera Ascent              8         40         13         11
     Imagery Upgrade........
    KSC Ground Operations     .........         15         38         42
     Workforce..............
    Other (System Intgr.,             4        110        107         71
     JBOSC Sys., SSME Tech.
     Assess, Ground Ops
     Workforce).............
    Stafford-Covey Team.....  .........          1          4  .........
                             -------------------------------------------
      Total, RTF Activities--        42        423        413        188
       Control Board
       Directive............
                             ===========================================
RTF Activities--Been to
 Control Board/Awaiting:
    Orbiter RCC Inspections   .........  .........  .........  .........
     & Orbiter RCC-2
     Shipsets Spares........
    On-Orbit TPS Inspection   .........  .........          6          8
     & EVA Tile Repair......
    Orbiter Workforce.......  .........  .........          5          5
    Orbiter Hardening.......  .........  .........  .........  .........
    Orbiter/GFE.............  .........  .........  .........  .........
    Orbiter Contingency.....  .........  .........          5  .........
    Orbiter Certification/    .........  .........  .........  .........
     Verification...........
    External Tank Items       .........         51         50          9
     (Camera, Bipod Ramp,
     etc.)..................
    SRB Items (Bolt Catcher,  .........  .........  .........  .........
     Camera)................
    Ground Camera Ascent      .........  .........  .........  .........
     Imagery Upgrade........
    KSC Ground Operations     .........  .........  .........  .........
     Workforce..............
    Other (System Intgr.,     .........         22          7          4
     JBOSC Sys., SSME Tech.
     Assess, Ground Ops
     Workforce).............
                             -------------------------------------------
        Total RTF             .........         73         73         26
         Activities--Been to
         Control Board/
         Awaiting...........
                             ===========================================
RTF Activities--In Review
 Process:
    Orbiter RCC Inspections   .........  .........         19          5
     & Orbiter RCC-2
     Shipsets Spares........
    On-Orbit TPS Inspection   .........  .........         10         21
     & EVA Tile Repair......
    Orbiter Workforce.......  .........  .........  .........  .........
    Orbiter Hardening.......  .........  .........  .........  .........
    Orbiter/GFE.............  .........  .........  .........  .........
    Orbiter Contingency.....  .........  .........  .........  .........
    Orbiter Certification/    .........  .........          9  .........
     Verification...........
    External Tank Items       .........  .........         14          3
     (Camera, Bipod Ramp,
     etc.)..................
    SRB Items (Bolt Catcher,  .........  .........  .........  .........
     Camera)................
    Ground Camera Ascent      .........  .........  .........  .........
     Imagery Upgrade........
    KSC Ground Operations     .........  .........  .........  .........
     Workforce..............
    Other (System Intgr.,     .........  .........         64         46
     JBOSC Sys., SSME Tech.
     Assess, Ground Ops
     Workforce).............
                             -------------------------------------------
        Total RTF             .........  .........        116         74
         Activities--In
         Review Process.....
------------------------------------------------------------------------

    Question. You have said that the United States will (1) terminate 
the space shuttle by 2010, and (2) fulfill our commitments to the 
partners in the International Space Station (ISS) program. How will 
that be accomplished, considering that the partners were relying on the 
availability of the shuttle during the operational phase of the ISS 
program?
    Answer. NASA is currently studying the options, including the 
utilization of commercial or partner vehicles and acceleration of the 
Crew Exploration Vehicle, to meet our obligations to our International 
Partners and to meet our commitment to retire the Shuttle by 2010.
    Question. Under what circumstances would you advocate waiver of the 
Iran Nonproliferation Act?
    Answer. Section 6 of the Iran Nonproliferation Act of 2000 (Public 
Law 106-178) (INA) restricts U.S. Government payments, in cash or in 
kind, to certain Russian entities for work related to human space 
flight, including the International Space Station (ISS). Section 6 
adversely impacts U.S. interests by limiting/eliminating U.S. human 
access to space and pursuit of the President's Vision for Space 
Exploration. Russia has said they will no longer provide critical ISS 
crew rescue and logistics services and have publicly stated their 
intention to interrupt Soyuz training for 2006 ISS U.S. astronauts 
unless they are compensated. The United States is dependent on Russia 
for Soyuz crew rescue with no other options until the new NASA Crew 
Exploration Vehicle is available. By April 2006, INA restrictions will 
prevent the United States from maintaining American crew members on the 
ISS expect during Space Shuttle visits.
    On July 12, 2005, the Administration proposed to Congress an 
amendment to INA to advance U.S. Government interests by enabling 
NASA's work and cooperation with the Russian Federal Space Agency to 
proceed: (1) operationally on the ISS and meet U.S. commitments to 
International Partners; and (2) programmatically in implementing the 
Vision for Space Exploration in a manner that maintains the strong 
commitment of the U.S. Government to nonproliferation. The 
Administration's proposed amendment took into consideration 
Congressional concerns voiced to date by proffering an amendment that 
retained all nonproliferation elements of INA (Sections 1-5) and made a 
minimal change to definition in Section 6 which, in effect, removed the 
prohibition on payments to Russian entities related to most ISS and 
human space flight activities.
    The Senate passed S. 1713, the Iran Nonproliferation Amendments Act 
of 2005, by unanimous consent on September 19, 2005. As passed, the 
measure amends INA to a limited degree, allowing NASA to meet near-term 
ISS operational and programmatic needs, but maintaining the 
restrictions of the INA for any payments related to human space 
exploration, and for ISS-related payments, beyond January 1, 2012.
    Question. If NASA is unable to get relief from the Act, how do you 
plan to provide crew rotation/rescue services?
    Answer. Assured crew return is an important safety protection under 
current ISS operational plans. Should the Soyuz vehicle be unavailable 
at any time in the future, U.S. crews would only be maintained on the 
ISS while the Space Shuttle or a potential future vehicle capable of 
serving as a crew rescue vehicle (e.g., the CEV or a commercial crew 
transfer vehicle) is docked.
    Question. What are the potential costs to NASA if you are given the 
authority to purchase crew rotation/rescue services from Russia?
    Answer. Actual costs are subject to negotiations with Russia, but 
NASA anticipates that the total amount of purchases of crew and cargo 
services from Russia would fit within the total funds appropriated by 
Congress for fiscal year 2005 and requested for fiscal year 2006 for 
the ISS Cargo and Crew Services budget line. [Fiscal year 2005--$98 
million; fiscal year 2006--$160 million; fiscal year 2007--$160 
million; fiscal year 2008--$160 million; fiscal year 2009--$500 
million; and fiscal year 2010--$890 million.] Costs for other services 
would fit within the total ISS budget.
    Question. What decision has been made about whether to continue 
building the centrifuge? How much has Japan spent on it to date? If 
NASA decides the centrifuge no longer is needed for ISS, are there 
alternative uses for it? Will NASA have to reimburse Japan for its 
costs if the program is canceled? What other termination costs would be 
associated with a decision to cancel it?
    Answer. Pursuant to the NASA-Government of Japan Memorandum of 
Understanding for the International Space Station (ISS) and an 
Agreement in Principle for JEM Launch Offset, Japan is developing the 
U.S. Centrifuge for NASA to partially offset NASA's costs for launching 
the Japanese Experiment Module, Kibo, to the ISS.
    On September 27, 2005, NASA informed officials from the Japan 
Aerospace Exploration Agency (JAXA) and the Japanese Ministry of 
Education, Culture, Sports, Science and Technology (MEXT) that the 
United States had withdrawn its requirements for development and launch 
of the U.S. Centrifuge Accommodation Module based on a re-
prioritization of research requirements with greater focus on research 
having a direct and near-term benefit to the exploration mission.
    NASA has not incurred termination costs and we believe we do not 
have an obligation to directly reimburse Japan for its costs. Under the 
arrangements described above, however, NASA is committed to launch the 
Japanese Experiment Module to the International Space Station in 
exchange for Japan's provision of the Centrifuge, associated hardware 
and H-IIA launch services.
    Discussions are currently underway between NASA and Japanese 
officials to discuss the implications of this NASA decision including 
areas of continuing commitment by both parties.
    While the Japanese Government has not provided NASA with the 
detailed Japanese budget for development of the U.S. Centrifuge, the 
following information is known:
  --In April 2004, the Japan Aerospace Exploration Agency (JAXA) 
        informed NASA that they had contracted $425 million to date for 
        the Centrifuge. JAXA's estimate for total Centrifuge 
        development costs at that time was $692 million.
    Question. When will the Administration submit its plan to Congress 
for coping with the issues posed by the Iran Nonproliferation Act in 
terms of assuring access to ISS by U.S. astronauts after 2006? What can 
you tell us today about the strategy the Administration plans to take?
    Answer. Section 6 of the Iran Nonproliferation Act of 2000 (Public 
Law 106-178) (INA) restricts U.S. Government payments, in cash or in 
kind, to certain Russian entities for work related to human space 
flight, including the International Space Station (ISS). Section 6 
adversely impacts U.S. interests by limiting/eliminating U.S. human 
access to space and pursuit of the President's Vision for Space 
Exploration. Russia has said they will no longer provide critical ISS 
crew rescue and logistics services and have publicly stated their 
intention to interrupt Soyuz training for 2006 ISS U.S. astronauts 
unless they are compensated. The United States is dependent on Russia 
for Soyuz crew rescue with no other options until the new NASA Crew 
Exploration Vehicle is available. By April 2006, INA restrictions will 
prevent the United States from maintaining American crew members on the 
ISS expect during Space Shuttle visits.
    On July 12, 2005, the Administration proposed to Congress an 
amendment to INA to advance U.S. Government interests by enabling 
NASA's work and cooperation with the Russian Federal Space Agency to 
proceed: (1) operationally on the ISS and meet U.S. commitments to 
International Partners; and (2) programmatically in implementing the 
Vision for Space Exploration in a manner that maintains the strong 
commitment of the U.S. Government to nonproliferation. The 
Administration's proposed amendment took into consideration 
Congressional concerns voiced to date by proffering an amendment that 
retained all nonproliferation elements of INA (Sections 1-5) and made a 
minimal change to definition in Section 6 which, in effect, removed the 
prohibition on payments to Russian entities related to most ISS and 
human space flight activities.
    The Senate passed S. 1713, the Iran Nonproliferation Amendments Act 
of 2005, by unanimous consent on September 19, 2005. As passed, the 
measure amends INA to a limited degree, allowing NASA to meet near-term 
ISS operational and programmatic needs, but maintaining the 
restrictions of the INA for any payments related to human space 
exploration, and for ISS-related payments, beyond January 1, 2012.
    Question. How many Shuttle flights are needed to complete 
construction of the ISS? What is your plan if that number of flights 
cannot be accomplished by the end of 2010, when the Shuttle program is 
supposed to be terminated?
    Answer. The NASA Administrator commissioned an assessment known as 
the Shuttle/Station Configuration Options Team (S/SCOT) study to 
evaluate options for the assembly and utilization of the ISS, taking 
into account the plan to retire the Space Shuttle by 2010 and honor 
U.S. commitments to the Space Station International Partners. The 
assessment also considered that Space Shuttle flight rate planning must 
account for the limitations of the Shuttle that became apparent after 
the loss of Columbia, namely that NASA's ability to successfully 
conduct 28 Shuttle flights by 2010 was no longer technically feasible.
    The results of the study now have been thoroughly reviewed by the 
Space Operations Mission Directorate and other NASA offices and the 
Administrator has approved a plan for discussion with the ISS 
International Partners. The International Partners were informed of 
NASA's proposed approach the week of September 26, 2005.
    NASA is operating under four key parameters:
  --Retiring the Shuttle by the end of fiscal year 2010;
  --Developing an achievable and robust Shuttle flight manifest;
  --Meeting our International Partner commitments; and
  --Completing the Space Station with a sustainable configuration with 
        acceptable vehicle and crew risk.
    Each of these parameters brings with it a number of unique 
considerations and constraints, which were assessed using a series of 
potential approaches. NASA management together with technical experts 
from the ISS and Space Shuttle programs developed a plan to optimize 
the capability of each program.
Key Elements of NASA's Proposed Plan for Space Station
    NASA's proposed plan, subject to the normal budget and 
appropriation process, as well as ongoing return-to-flight 
considerations, is to fly the Shuttle in a disciplined, measured 
fashion, targeting 19 Shuttle flights. The 19 flights include 18 
flights to the ISS beginning with STS-121, plus a possible additional 
flight to service the Hubble Space Telescope. The flights to the ISS 
would provide the infrastructure for the International Partner modules 
first, followed immediately by the Partner laboratories. Maintenance 
and logistic flights for sustainability are at the end of the sequence. 
The order and flight strategy is as important a consideration as the 
specific number of flights.
    The plan includes the launch of key NASA-provided infrastructure 
elements and other capabilities to enable a potential 6 person crew and 
meaningful utilization of the ISS. NASA has determined, however, that 
its exploration research objectives no longer require the Centrifuge 
Accommodation Module that is being developed for NASA by JAXA under a 
barter arrangement.
    The approach would also accommodate almost all of the International 
Partner elements currently planned for launch to the ISS, with the 
notable exceptions of the U.S. Centrifuge and the Russian Solar Power 
Module. In both cases, NASA is prepared to immediately engage in 
detailed bilateral discussions to establish a mutually beneficial 
arrangement to accommodate the proposed change.
    The first 13 flights, scheduled to occur over the three years after 
the Shuttle returns to flight, would not vary significantly from the 
reference assembly sequence endorsed at the Multilateral Coordination 
Board and Heads of Agency meetings in Montreal last January.
    Question. To what extent does imposing a date certain on ending the 
shuttle program create schedule pressure similar to that which existed 
prior to the Columbia accident (according to the Columbia Accident 
Investigation Board)?
    Answer. The Columbia Accident Investigation Board recognized that 
schedules were a recognized, even unavoidable tool for managing large 
and complex systems such as the Space Shuttle and International Space 
Station programs. As such, the Columbia accident wasn't caused by 
schedule pressure per se, but rather by a safety system that had lost 
much of its independence and had grown too weak to act as an effective 
check on safety issues in the face of normal schedule factors.
    The Vision for Space Exploration outlines an ambitious series of 
goals, including completing assembly of the International Space 
Station, retiring of the Space Shuttle Orbiter fleet, and developing 
the next-generation of crew and cargo vehicles that will support ISS 
utilization and missions to the Moon, Mars, and beyond. These goals are 
now supported by a strong, independent, and proactive safety 
organization, one that has played a key role in returning the Space 
Shuttle to flight as expeditiously and as safely as possible and that 
will continue to ensure safe mission execution throughout the rest of 
the Space Shuttle's operational lifetime.
    Question. What are the current plans for the ISS once it has 
reached the end of its useful life? What is the current plan for de-
orbiting, or decommissioning, the ISS?
    Answer. There is no current specific plan for de-orbiting or 
decommissioning the ISS. The budget plans announced in 2004 indicated 
the completion of essential U.S. exploration research in 2016, and an 
end of the funding for ISS operations. Some hardware elements of the 
ISS reach their service life limitations in 2016. Prior to 2016, a 
determination will be made on the costs of extending the Station's 
service life and benefits of continuing U.S. ISS operations beyond 
2016. Based on that determination, NASA will develop plans to address 
the potential future involvement of NASA, the U.S. government, 
International Partners, the private sector, and academic institutions 
in ISS operations and utilization.
                                 ______
                                 
            Questions Submitted by Senator Pete V. Domenici

    Question. Dr. Griffin, in the President's new National Space 
Transportation Policy, you are directed, in coordination with the 
Secretary of Defense, to recommend an option to meet future heavy lift 
requirements. This Committee, as well as that chaired by Senator 
Stevens, is keenly interested in the costs of the preferred option.
  --Have your studies progressed far enough to identify the potential 
        most cost effective solution?''
  --Is the process of ``coordination'' with DOD working to your 
        satisfaction?
  --What are the implications of the recent news about the Air Force's 
        intention to increase their space presence?
    Answer. NASA has conducted a detailed assessment of our launch 
vehicle requirements, including heavylift requirements and crew launch 
requirements. We believe those studies have identified highly effective 
solutions that include cost-effectiveness, schedule, minimization of 
programmatic risk, mission reliability, and crew safety. Based on all 
of these factors, NASA and the Department of Defense (DOD) have agreed 
on a policy for use and development of national launch systems. The 
attached letter, signed on August 5, 2005, by the NASA Administrator 
and the DOD Executive Agent for Space, outlines that policy. 
Specifically, NASA has chosen Shuttle-derived options for its future 
crew and very heavy cargo lift requirements because of their proven 
safety and superior cost and schedule availability. Specifically, the 
Space Shuttle propulsion elements are reliable, human-rated, and best 
able to fit the available architecture within the available timeframe.
    Throughout the process, we have been actively engaged with the DOD, 
including senior management and staff levels. We have been very 
encouraged by the constructive dialogue and support at all levels, and 
believe the process of coordination is working well.
    We look forward to continuing our close working relationship with 
the Air Force. While the Air Force and NASA each has unique and 
independent roles and responsibilities, it is also true that we benefit 
from each others investments, experience, and talents.
    Question. Dr. Griffin, in your response to questions from my 
colleagues in other sessions, you stated that it costs about $4.5 
billion to own the Shuttle, whether it flies or not. Unlike the post-
Challenger return to flight efforts, your current continuing extensive 
efforts are not being funded by a supplemental appropriation. You are 
trying to execute four major tasks in the human space flight program: 
return the Shuttle to flight, fly the Shuttle safely until 2010, 
complete the assembly of the International Space Station, and have a 
new CEV available in a timeframe consistent with Shuttle retirement. 
How much money has been spent on return to flight?
    Answer. NASA's estimate for Space Shuttle Return to Flight (RTF) 
costs from fiscal year 2003 through the end of fiscal year 2006 is just 
over $1.4 billion. Overall, Return to Flight costs are stabilizing as 
technical solutions have reached maturity and implementation of 
solutions nears completion. The estimates provided in the latest 
Implementation Plan for Space Shuttle Return to Flight and Beyond, 
dated June 3, 2005 (attached), remain valid and have not substantially 
changed since November 2004. Management tools are in use to monitor 
progress and provide early warning of potential problems. However, the 
potential exists for additional content that may be required in the 
post-Return to Flight timeframe depending on the ongoing work 
addressing issues seen during STS-114 and the results of the Shuttle's 
performance on the second Return to Flight mission, STS-121.
    Current estimates for RTF costs are: Fiscal year 2003--$42 million; 
fiscal year 2004--$496 million; fiscal year 2005--$602 million; and 
fiscal year 2006--$288 million.
    If there are any increases in Return to Flight costs, NASA is 
committed to accommodating them within its total budget request.
    Actual costs to date are tracking very closely with the November 
2004 estimate provided to Congress. The total estimated cost for 
returning the Shuttle to flight status through fiscal year 2009 is 
approximately $1.98 billion. The out-year costs are associated with 
added manpower for Systems Engineering. NASA's plan and our budget 
reflect the end of RTF after the second RTF mission and subsequent 
post-flight assessment actions. These milestones will take the Agency 
through most of fiscal year 2006. RTF, from a budget perspective, will 
end in fiscal year 2006, and will no longer be tracked as a separate 
effort, beginning in fiscal year 2007.
    Question. What is your strategy for executing the other three 
priorities while coping with the cost impact of return to flight?
    Answer. NASA has completed the Exploration Systems Architecture 
Study (ESAS), which outlines NASA's approach to implementing the Vision 
for Space Exploration. The Vision calls for the Agency to return the 
Space Shuttle to flight, complete the International Space Station, 
return to the Moon, and move on the exploration of Mars and beyond. 
Based on ESAS recommendations, NASA has now laid out a detailed plan to 
support sustained human and robotic lunar exploration, operations, 
accelerate the development of the Crew Exploration Vehicle and launch 
systems for missions to the International Space Station, Moon, and 
Mars, and identify key technologies required to enable this exploration 
architecture. This plan is a safe and sustainable approach that seeks 
to affordably accelerate the pace of space exploration. An important 
aspect of this plan is that it is a ``go-as-you-can-afford-to-pay'' 
approach,'' within planned budgets for Exploration Systems, through 
redirection of funding for longer-term and lower-priority research and 
technology (R&T) elements within the Exploration Systems Mission 
Directorate.
    NASA has also completed the Shuttle/Station Configuration Options 
Team (SSCOT) study to evaluate options for the assembly and utilization 
of the International Space Station, taking into account the President's 
decision to retire the Space Shuttle by 2010, while still honoring U.S. 
commitments to the Space Station International Partners. Based in part 
on this assessment, NASA has developed a plan, subject to the normal 
budget and appropriations process, as well as ongoing return-to-flight 
considerations, to move forward and begun discussions with our 
international partners.
    Question. In an ideal world, I suspect that your agency would be 
relieved if some of the return-to-flight costs could be funded through 
a supplemental appropriation so as not to detract from other 
activities, many of which have been supported in the past by the 
Congress. What would the supplemental requirements be were the 
supplemental avenue open to NASA?
    Answer. The President requested budgets for NASA that were 
sufficient to return the Shuttle to flight without the need for a 
supplemental appropriation, and NASA does not expect to need any future 
supplemental to pay for residual return to flight costs. As stated in 
response to Question 2(a), actual costs to date for RTF are tracking 
very closely with the November 2004 estimate provided to Congress. If 
there are any increases in RTF costs, NASA is committed to 
accommodating them within its total budget request.
                                 ______
                                 
              Questions Submitted by Senator Patty Murray

    Question. While the President's budget proposal would add resources 
for its plans to finish construction of the International Space 
Station, increase exploration of the solar system, and develop the 
technologies needed for future Moon and Mars missions it would cut a 
servicing mission critical for the survival of the Hubble Space 
Telescope, as well as drastically decrease aeronautics research.
    In addition, I have concerns about the NASA education programs and 
their ability to work with community education efforts to inspire and 
prepare the next generation of scientists and engineers.
    It is my understanding that many experts in the field claim that 
the Hubble Space Telescope is one of the most beneficial programs 
currently being operated by NASA, as it has helped expand our 
understanding of the universe in ways scientists never thought possible 
just 15 years ago. Administrator Griffin, if you were to move forward 
with a plan to end the Hubble program what research programs would take 
its place to keep increasing our scientific understanding of distant 
parts of the universe?
    Answer. NASA has a number of missions capable of investigating 
distant parts of our universe. Currently we operate three Great 
Observatories: The Hubble Space Telescope, the Chandra X-ray 
Observatory, and the Spitzer Space Telescope. Each of these facilities 
(all of which will be operational until 2009 and possibly beyond) is 
used daily by the astronomical community to further our understanding 
of the heavens. In addition to these operating programs, we have a 
number of missions in development that will advance our understanding 
of the distant universe. The Gamma-ray Large Area Space Telescope 
(GLAST) will launch in 2008 and enable astronomers to study high-energy 
phenomena with unprecedented precision. The Wide-area Infrared Survey 
Explorer (WISE), scheduled for launch in 2009, will map the sky in 
infrared bands of light providing astronomers with a new catalog of 
objects (both near and distant) for additional study. The James Webb 
Space Telescope (JWST) will follow these missions in the middle of the 
next decade and will be the premier platform for observing the distant 
universe. By virtue of its large collecting area and infrared coverage, 
JWST will see the earliest galaxies to form in the universe. Finally, 
NASA also supports a number of cosmic microwave background studies, 
such as the Wilkinson Microwave Anisotropy Probe, or the Balloon-borne 
Large Aperture Submillimeter Telescope, that permit astronomers to 
study the remnants of the Big Bang, very first light ever emitted by 
the universe. These missions were designed to provide unique views of 
the universe beyond those obtainable from Hubble. Servicing Hubble 
would provide additional time to sequence some of these missions, but 
would not replace the need for this follow-on research.
    Question. As you know NASA has been built around the dual missions 
of space exploration and aviation research. Representing an aviation 
rich state I am concerned that recent proposals by NASA demonstrate 
that its commitment to aeronautics and aviation is waning. Aeronautics 
experts from NASA have developed innovations throughout its history 
including the X-15 ``rocket plane'' of the 1950s and 1960s, de-icing 
systems, and the ``supercritical wing''--the rounded-bottom wing design 
used today by virtually every commercial jetliner to increase speed, 
improve range and save fuel. Administrator Griffin, I am curious as to 
why it is that NASA has decided to move away from its critical mission 
on aeronautics and aviation? And what you foresee is NASA's role, if 
any, in helping to advance aviation technology in the future?
    Answer. Dr. Lisa Porter was recently selected as Associate 
Administrator to lead NASA's Aeronautics Research Mission Directorate. 
In that role she has begun the process of reshaping NASA's Aeronautics 
research program allowing the Agency to take responsibility for the 
intellectual stewardship of the core competencies of Aeronautics for 
the Nation. This will require us to reinvest in the Agency's in-house 
expertise to ensure that we retain the world-class skills, knowledge, 
and facilities needed to guarantee our Nation's ability to consistently 
contribute world-class innovation to aeronautical challenges, both 
civilian and military.
    The reshaped aeronautics program will strengthen our partnerships 
with the Department of Defense (DOD) and Federal Aviation 
Administration (FAA), capitalizing on each agency's unique capabilities 
and resources to strengthen the Nation's leadership in aeronautics. Our 
partnership with DOD will include close collaboration to establish an 
integrated national strategy for management of the Nation's most vital 
wind tunnels. We will forge new partnerships and continue to benefit 
from partnerships built in the past with academia and industry. We will 
seek long-term, intellectual partnerships with industry that will be 
able to rely on us to invest in the ``seed corn'' that is the critical 
ingredient in revolutionary technological advancement.
    As a first step, NASA is reshaping the three major programs within 
the Aeronautics Mission Directorate. The previous Vehicle Systems 
Program is being renamed the Fundamental Aeronautics Program in order 
to reflect properly its new focus on basic aeronautical sciences. 
Within Fundamental Aeronautics, and consistent with direction we 
received from the Congress, we will re-establish the Agency's 
dedication to the mastery of core competencies in subsonic, supersonic, 
and hypersonic flight. We will create projects that provide continual, 
long-term investment in the fundamentals and that build upon that 
investment to develop system-level, multidisciplinary capabilities that 
will enable both the civilian and military communities to build 
platforms that meet their specific needs. As part of our investment in 
fundamental aeronautics, we are positioning the program to continue 
important long-term research activity in fiscal year 2006 that 
preserves the core competencies in rotorcraft and hypersonics, drawing 
upon NASA's critical inhouse expertise. We are transforming the 
Aviation Safety and Security Program into the Aviation Safety Program, 
where we will focus research on safety areas that are appropriate to 
NASA's unique capabilities. Projects in Aviation Safety will address 
integrated vehicle health management, resilient aircraft control, 
intelligent flight deck technologies, and aging aircraft. The Airspace 
Systems Program is being realigned to directly address the air traffic 
management needs of the Next Generation Air Transportation System 
(NGATS) as defined by the Joint Planning and Development Office (JPDO).
    Leading scientists and engineers from the NASA field centers 
participated in workshops in September and October to lay the 
foundation for a technical plan to reshape the Aeronautics Research 
program. As the year progresses, this technical plan will be guided by 
the National Aeronautics Policy that is being developed by Office of 
Science and Technology Policy and NASA in collaboration with other 
agency partners. (Dr. Porter is co-chair of the National Science and 
Technology Council's Aeronautics Science and Technology Subcommittee.) 
In addition, the National Research Council is currently conducting a 
decadal survey for aeronautics, which will also provide inputs to our 
plan.
    Question. On the issue of NASA's education programs I have several 
questions. As you know the Office of Space Science once operated a 
widely-respected program that focused on all of NASA's core missions. 
Under Administrator O'Keefe there was a major shift to centralize the 
education programs and focus efforts on space-exploration focused 
schools and sending a teacher into space. Furthermore it is my 
understanding that the NASA Explorer Schools have been focused on 
manned space flight instead of broad scientific endeavors. Can you 
explain why NASA made this shift in the focus on education and what the 
thoughts and analysis behind eliminating and or altering the old 
programs were? At a broader level, what is NASA doing within its 
education program to develop lasting enthusiasm in science to truly 
help create the scientists of the future?
    Answer. Early in fiscal year 2003 NASA did indeed shift management 
responsibility for some of its education programs by establishing its 
Office of Education, separate from the Mission Directorates but to 
address and coordinate within NASA and for NASA education endeavors 
with other federal agencies. This shift did not eliminate or 
significantly alter any education programs conducted by either the 
Office of Space Science or the Office of Earth Science.
    In August 2004, the Office of Space Science and Office of Earth 
Science were merged to create the new Science Mission Directorate. The 
education programs of these predecessor organizations have continued 
and efforts are underway to exploit synergies to enhance the science 
education program. These efforts will build on the strengths of the 
current programs and focus on engaging learners of all ages in the NASA 
mission of exploration and discovery. In fact, for the most recent 
reporting year [2004] the space science programs reached over 400,000 
direct participants in workshops, community and school visits, and 
other interactive special events; 7 million Internet participants for 
web casts, web chats, and other web events, and, a potential audience 
of over 200 million for lectures, planetarium shows, museum 
exhibitions, conference exhibits, radio, television, and other forms of 
public media. Through the NASA Science Mission Directorate, NASA backed 
science education can be found in all 50 states, the District of 
Columbia, Puerto Rico, and the Virgin Islands. The Mission Directorates 
continually assessing the educational opportunities and content 
presented to ensure
    The NASA Explorer Schools (NES) project, launched in 2003 and 
managed by NASA Office of Education as one of four Pathfinder 
Initiatives, is designed to engage all NASA Centers and the four 
Mission Directorates, has six primary objectives:
  --To increase student interest and participation in mathematics, 
        science, technology and geography;
  --To increase student knowledge about careers in mathematics, 
        science, engineering and technology;
  --To increase student ability to apply mathematics, science, 
        technology and geography concepts and skills in meaningful 
        ways;
  --To increase the active participation and professional growth of 
        educators in science, mathematics, geography and technology 
        resulting in higher quality education for K-12 students;
  --To increase the academic assistance for and technology use by 
        educators in schools with high populations of underserved 
        students; and
  --To increase family involvement in children's learning.
    The NES project is specifically designed to meet the individual 
needs of each competitively selected school. Upon entering the project, 
each school completes a needs assessment which NASA uses to create a 
multifaceted approach to meeting school needs, and which reaches far 
beyond the NES network to provide opportunities to highlight and 
implement all Mission Directorate programs. Content material includes: 
pre-algebraic concepts, inquiry-based math modules related to the 
science, engineering and technology of space flight, digital image 
processing and analysis (IPA) and geographic information systems (GIS), 
integrate NASA earth and space content, updated NASA-content as we 
learn more about the space environment, and providing symposia for 
participating schools in topics ranging from spaceflight to robotics to 
Mars exploration.
    NES will also provide opportunities to all interested schools in 
the United States. These challenges focus on science, technology, 
engineering, and mathematics--subject areas needed for technical 
careers at NASA. Areas to be addressed included: Space Flight 
Opportunities; Imagine the Moon; Crew Exploration Vehicle Design; and 
Multi-media Explorations. Furthermore, the NASA Aerospace Education 
Services project utilizes all available NASA content and resources to 
support not only the NASA Explorer Schools but schools from across the 
country that express an interest in our assistance. Content and 
resources come from across NASA.
    NASA education continues to create and promote educational 
materials and opportunities within all Mission Directorates--
Aeronautics Research, Science, Space Operations, and Exploration 
Systems, as well as through its Office of Education.
    Question. Furthermore, I am interested in how NASA can improve its 
education mission to build long-term partners with community based 
science and education efforts? Specifically, what ways are you looking 
at to take NASA resources and imbed them within the efforts of 
community based organizations in order to make NASA's education 
programs sustainable and ensure that those efforts become institutional 
and long-lasting?
    Answer. NASA is continuing efforts to expand education in the 
sciences, technology, engineering and mathematics through numerous 
venues within the informal education community, to include museums, 
science centers planetariums, youth and community groups among others. 
These activities take place every day, conducted through the four 
Mission Directorates, the ten NASA Centers, and the NASA Office of 
Education.
    In fact, one of the nationwide NASA Pathfinder Initiatives, the 
NASA Explorer Institutes (NEI) project is specifically designed to 
enhance the capabilities of the informal education community to inspire 
the next generation of explorers by:
  --Providing access to NASA staff, research, technology, information, 
        and/or facilities and by engaging the informal education 
        community in discussions about how to involve the public in 
        shaping and experiencing NASA-related missions;
  --Identifying NASA-related instructional content, resources, and 
        information, in collaboration with the informal education 
        community that will enhance informal education program goals 
        and objectives;
  --Providing NASA-related professional development opportunities for 
        members of the informal education community across the nation; 
        and
  --Facilitating the formation of collaborative partnerships between 
        informal and formal education communities.
    The project is in the second full year of its 3-year roll out. In 
fiscal year 2004, activities involved organizations in 46 states, the 
District of Columbia, Puerto Rico, the Virgin Islands, and the Overseas 
Military Program. Organizations represented science centers, museums, 
planetariums, libraries, parks, aquariums, nature centers, youth 
groups, community-based organizations, and state and federal agencies.
    In fiscal year 2004, NASA conducted eleven focus groups across the 
nation on a variety of topics, with each group focused on a different 
set of strategies. But, each shared similar goals of improving the 
public's understanding and appreciation of science, technology, 
engineering, and mathematics (STEM) disciplines; establishing linkages 
that promote new partnerships/relationships between providers of 
informal and formal education; exciting youth, particularly those who 
are underrepresented and underserved, about STEM disciplines; and 
expanding STEM informal education programs and activities to 
communities/locations that have been traditionally underserved by such 
opportunities. Many of the focus groups resulted in previously 
unconsidered collaborations, such as now-growing connections in Native 
American communities with space scientists, and connections in nascent 
or changing industries, such as data visualization and digital 
productions. Participants of these focus groups represented over 200 
institutions (museums, science centers, community groups, industry, 
etc.), and they expressed support at NASA's willingness to listen and 
openness to new ideas.
    NASA Explorer Institutes also supported six pilot professional 
developments workshops, connecting informal educators to NASA's unique 
facilities and expertise. These workshops led to a number of successful 
follow-up projects, including a number of regional collaborations by 
workshop attendees. Based upon results of the workshops and focus 
groups, the NASA recently released a new solicitation for NASA Centers 
to host NASA Explorer Institutes later this year.
    Through the NEI project NASA also leveraged partnerships with 
several organizations to share NASA's discoveries and experiences: (1) 
For the Nation's afterschool programs, the American Museum of Natural 
History conducted an eighteen-month study and demonstration project 
that included a scan of existing science programming in afterschool 
environments, the development of prototype curriculum packets based on 
NASA resources, pilot testing and staff training in three afterschool 
programs in New York City, a review of science education research and 
promising practice literature, and consultations with experts in 
science education, afterschool, and curriculum development. (2) With 
the National Park Service, NASA developed an agreement that resulted in 
the design of professional development experiences for interpreters 
that include NASA content to enhance the compelling stories of natural 
and cultural resources of the parks.
    Workshop participants adapted space science and earth sciences 
resources for use in their parks, and developed new interpretive 
material. (3) With the Girl Scouts of the USA (GSUSA), NASA broadened 
the knowledge of national master trainers to increase their 
understanding of an integrated NASA Earth and Space Science Story. 
These master trainers are now mentoring trainers across the nation, 
competitively selected from GSUSA councils with significant populations 
of ethnically, economically, and/or geographically underserved girls. 
(4) Finally, several NASA Centers are collaborating to produce the 
Workshop for Informal Education Specialists, a Return to Flight public 
engagement event with over 80 informal education venues (museums, 
science centers, planetariums) to prepare partners to help NASA 
positively engage the public in experiencing the excitement of 
exploration and human space flight.
    Question. Finally, Mr. Administrator, as you know, the country 
needs capability to deliver cargo to and recover it from the 
International Space Station. NASA has indicated that it intends to 
release a ``request for proposal'' (RFP) this year for the 
International Space Station commercial cargo transportation services. 
What is NASA's timetable for its release and response?
    Answer. NASA has undertaken a number of steps to assess its future 
requirements for crew and cargo transportation in support of the ISS 
and future human exploration. A Request for Information (RFI), issued 
in September 2004, solicited information regarding capabilities and 
market interest from existing and emerging domestic commercial space 
transportation providers. NASA also conducted an ISS Cargo Industry Day 
earlier this year to exchange technical information with potential 
commercial providers. Within the next month, NASA will issue a draft 
solicitation requesting commercial service demonstrations for ISS crew 
and cargo delivery and return. Where commercial providers have 
demonstrated the ability to meet NASA needs and safety requirements, 
commercial services will be purchased instead of using government 
assets and operations.
                                 ______
                                 
             Questions Submitted by Senator Byron L. Dorgan

                   UPPER MIDWEST AEROSPACE CONSORTIUM

    Question. Last year, Congress earmarked a number of projects in the 
fiscal year 2005 Omnibus bill including $2,000,000 to the University of 
North Dakota in Grand Forks for the Northern Great Plains Space 
Sciences and Technology Center under the Earth Science account. What is 
the status of these funds?
    Answer. NASA has completed review of the proposal from the 
University of North Dakota for the Northern Great Plains Space Sciences 
and Technology Center, and funding has been approved for release. Grant 
award is expected within the next few weeks.

                        SPACE AND EARTH SCIENCE

    Question. NASA conducts both Space and Earth Science. Earth Science 
appears to be more weakly supported within the agency. What role do you 
envision for Earth Science?
    Answer. NASA maintains a vigorous program in Earth science that 
makes important contributions to several interagency Administration 
initiatives, including Climate Change Science, Earth Observations, and 
Ocean Action, as well as NASA's Vision for Exploration. As an example, 
NASA's contribution to the Administration's Climate Change Science 
Program (CCSP) is far and away the largest of any Federal agency, 
constituting some 60 percent of the total CCSP investment by the U.S. 
government. NASA's support for Earth science has remained consistent, 
and recent statements by Dr. Griffin emphasize NASA's commitment to a 
robust portfolio across Earth and space science disciplines that will 
continue NASA's historic support.

             WINDOW OBSERVATIONAL RESEARCH FACILITY (WORF)

    Question. The University of North Dakota has been developing AgCam, 
a sensor intended to operate on the International Space Station. With 
the problems with the Shuttle, and getting equipment to the Space 
Station, there is some question as to when AgCam will be able to go up. 
AgCam was designed to go into the WORF (Window Observational Research 
Facility). The WORF provides an enclosed environment at a comfortable 
temperature and pressure, so that AgCam did not have to be built to the 
specifications of devices in the vacuum of interplanetary space. 
However, the WORF is not scheduled for a shuttle flight until May 2007 
and may not be sent then.
    Is the Window Observational Research Facility (WORF) scheduled for 
a launch on the Space Shuttle? When?
    Answer. NASA has assessed its plans for the utilization of the ISS, 
and focused its research and technology development goals toward those 
activities that most closely support the Vision for Space Exploration. 
In this environment of limited opportunities for the launch of 
facility-class payloads, it is critical that utilization planning align 
as closely as possible with the needs of the human exploration planning 
effort. The only missions for which specific payloads have been 
manifested on the Space Shuttle are the first two Return to Flight 
missions. Consistent with the Vision, the Space Shuttle will be retired 
by 2010. Prior to its retirement, it will be utilized primarily for the 
assembly of the ISS. Our top priority will be to make each flight safer 
than the last. As we noted in our November 2004, correspondence to you 
on this topic, in the event that a future flight opportunity does 
become available on the Space Shuttle, the WORF facility will be 
considered for delivery to the ISS. The University of North Dakota has 
been apprised of the situation and is aware that NASA cannot commit to 
the flight of WORF on the Space Shuttle.
    Question. If the WORF cannot be launched to the ISS, could AgCam be 
accommodated some other way?
    Answer. The AgCam hardware has been designed and built to be 
operated in the WORF. The WORF would provide resources such as power, 
thermal control, data and mounting positions for operations of the 
AgCam. The hardware as designed could not operate independently of the 
WORF. It might be possible to redesign the AgCam hardware and its 
operations concepts, but the University would require additional 
funding, testing, and development time; even with such a redesign, it 
is unclear whether the redesigned hardware could achieve the expected 
scientific value without the WORF.
    Question. What are the plans for Earth observations from the 
International Space Station?
    Answer. While NASA is not pursuing new Earth sciences research on 
the ISS because of the limited launch opportunities on the Space 
Shuttle, we are continuing with two Earth observations programs already 
on-orbit.
    The Earth Knowledge Acquired by Middle Schools (EarthKAM) program 
allows middle school students to command, via computer, a digital 
camera mounted in a window of the ISS and integrate Earth images taken 
by the camera with inquiry-based learning for 5th-8th grade students. 
Photos are made available on the Web for viewing and study by 
participating schools around the world. Educators use the pictures in 
conjunction with curricula for projects involving Earth Science, 
geography, physics, math, and technology. To date, over 80 schools with 
more than 1,600 students from the United States, Japan, Germany, and 
France have participated in the EarthKAM program.
    The Crew Earth Observations (CEO) program continues, with the ISS 
crew photographing various Earth sites on a daily basis. Hand-held 
photography of the Earth from human spaceflight missions, spanning more 
than 40 years, provides insights and documents changes on the Earth. 
The ISS crew members are building on this time series of imagery, which 
was started in 1961.

                  INTERNATIONAL SPACE STATION PROPOSAL

    Question. Mr. Administrator, it is my understanding that in the 
coming months NASA is expected to release a ``request for proposal'' 
(RFP) for International Space Station (ISS) commercial cargo 
transportation services, which would provide the necessary means for 
getting cargo to and from the ISS. In order for markets to have time to 
plan, could you provide a general timeframe for the RFP's release and 
the expected response time?
    Answer. NASA has undertaken a number of steps to assess its future 
requirements for crew and cargo transportation in support of the ISS 
and future human exploration. A Request for Information (RFI), issued 
in September 2004, solicited information regarding capabilities and 
market interest from existing and emerging domestic commercial space 
transportation providers. NASA also conducted an ISS Cargo Industry Day 
earlier this year to exchange technical information with potential 
commercial providers. Within the next month, NASA will issue a draft 
solicitation requesting commercial service demonstrations for ISS crew 
and cargo delivery and return. Where commercial providers have 
demonstrated the ability to meet NASA needs and safety requirements, 
commercial services will be purchased instead of using government 
assets and operations.

                          SUBCOMMITTEE RECESS

    Senator Shelby. The subcommittee will now stand in recess 
until 10 o'clock, on Tuesday, May 24, when we will hear 
testimony from the Attorney General, Alberto Gonzales, and the 
Director of the Federal Bureau of Investigation, Robert 
Mueller, on the Department of Justice's budget for 2006.
    The subcommittee is recessed.
    [Whereupon, at 3:28 p.m., Wednesday, May 11, the 
subcommittee was recessed, to reconvene at 10 a.m., Tuesday, 
May 24.]

</pre></body></html>
